<html>
<title> - NATIVE WOMEN: PROTECTING, SHIELDING, AND SAFEGUARDING OUR SISTERS, MOTHERS, AND DAUGHTERS</title>
<body><pre>[Senate Hearing 112-311]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-311
 
  NATIVE WOMEN: PROTECTING, SHIELDING, AND SAFEGUARDING OUR SISTERS, 
                         MOTHERS, AND DAUGHTERS 

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 14, 2011

                               __________

         Printed for the use of the Committee on Indian Affairs


                      0COMMITTEE ON INDIAN AFFAIRS

                   DANIEL K. AKAKA, Hawaii, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN HOEVEN, North Dakota
MARIA CANTWELL, Washington           MIKE CRAPO, Idaho
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
TOM UDALL, New Mexico
AL FRANKEN, Minnesota
      Loretta A. Tuell, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel




























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 14, 2011....................................     1
Statement of Senator Akaka.......................................     1
Statement of Senator Barrasso....................................     2
Statement of Senator Franken.....................................     4
Statement of Senator Murkowski...................................     4
Statement of Senator Udall.......................................     3
    Prepared statement...........................................     3

                               Witnesses

Deer, Sarah, Amnesty International, Assistant Professor, William 
  Mitchell School of Law.........................................    68
    Prepared statement...........................................    70
O'Leary, Carmen, Director, Native Women's Society of the Great 
  Plains.........................................................    51
    Prepared statement...........................................    53
Perrelli, Thomas J., Associate Attorney General, U.S. Department 
  of Justice.....................................................     5
    Prepared statement with attachments..........................     7
Peercy, Mickey, Executive Director, Health Services of Choctaw 
  Nation of Oklahoma.............................................    63
    Prepared statement...........................................    65
Rodgers, Hon. Donald W., Chief, Catawba Indian Nation............    44
    Prepared statement...........................................    46
Tibbetts, Sherry Sanchez, Executive Director, American Indian 
  Community Housing Organization.................................    55
    Prepared statement...........................................    56
Weahkee, Ph.D., Rose, Director, Division of Behavioral Health, 
  Indian Health Service, U.S. Department of Health and Human 
  Services.......................................................    29
    Prepared statement...........................................    31

                                Appendix

Cherokee Nation, prepared statement..............................    82
Cultee, Hon. Clifford, Chairman, Lummi Indian Nation, prepared 
  statement......................................................    84
Francis, Hon. Kirk E., Chief, Penobscot Indian Nation, prepared 
  statement......................................................   115
Ingram, Jolanda E., B.A., J.D., Executive Director, Niwhongwh xw 
  E:na:wh Stop the Violence Coalition, Inc., prepared statement..   115
Koepplinger, Suzanne, Executive Director, Minnesota Indian 
  Women's Resource Center, prepared statement....................   122
National Congress of American Indians (NCAI) Task Force on 
  Violence Against Women, prepared statement.....................    98
National Indian Health Board, prepared statement.................   113
Response to written questions submitted by Hon. Daniel K. Akaka 
  to Carmen O'Leary..............................................   124
Response to written questions submitted by Hon. John Barrasso to 
  Rose Weahkee, Ph.D.............................................   124
Shelly, Hon. Ben, President, Navajo Nation, prepared statement...    79
Soler, Esta, Founder/President, Futures Without Violence, 
  prepared statement.............................................   119
Walker, Jana L., Senior Attorney, Indian Law Resource Center, 
  prepared statement.............................................    92


  NATIVE WOMEN: PROTECTING, SHIELDING, AND SAFEGUARDING OUR SISTERS, 
                         MOTHERS, AND DAUGHTERS

                              ----------                              


                        THURSDAY, JULY 14, 2011


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:37 p.m. in room 
628, Dirksen Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. AKAKA, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. I call this hearing of the Committee on 
Indian Affairs to Order.
    Aloha and thank you for being with us today. Today's 
hearing is entitled Native Women: Protecting, Shielding, and 
Safeguarding Our Sisters, Mothers, and Daughters.
    The Committee will hear about some very difficult topics, 
issues that, unfortunately, affect Native women every day in 
our Country. For Native peoples, women are sacred. They bring 
life and nurture us. They malama, in Hawaiian, they care for 
our peoples, and we must malama them.
    Many Native peoples mark the important stages of a woman's 
life with ceremonies and community celebration. Yet, many of 
the Native women find themselves in unbearable situations that 
threaten their security, stability, and even their lives.
    Two in five Native women will suffer domestic violence and 
one in three Native women will be sexually assaulted in their 
lifetime. These statistics, these realities are unacceptable 
and we must act to change this.
    Women are also starting to tell their stories about being 
victimized by traffickers who prey on them in our urban and 
reservation communities, coercing them into prostitution. We 
will look at the Violence Against Women Act and listen to 
providers, advocates, and tribal leaders to learn what is 
working and what is not.
    Violence against Native women affects each and every one of 
us.
    Before we hear from our witnesses today, I would like to 
play a short public service announcement from Minnesota 
entitled, ``When I Grow Up,'' as an example of why we are here 
today.
    [Public service announcement video played.]
    ''While I'm pregnant, I can keep our baby safe by not 
drinking, smoking, or using drugs. But how are we going to keep 
her safe after she's born?
    When I grow up, I look forward to dancing in pow-wows, 
going to college, and being successful, but I don't want to be 
one out of three American Indian women to be raped or sexually 
assaulted in her lifetime.
    As relatives and friends of Native women, it is our 
responsibility to stand up and speak out for every woman's 
right to be safe in her home and the community.
    Sponsored by the Minnesota Indian Women's Sexual Assault 
Coalition.''
    [End of public service announcement video.]
    The Chairman. I look forward to hearing from all witnesses 
as to what next steps we can take to better prosecute and 
punish the perpetrators. We will be looking for ways to keep 
women safe, empower them, and help them heal.
    Vice Chair Barrasso, my good friend from Wyoming, is my 
partner on this Committee and I am happy that we are able to 
work together on this. Vice Chair Barrasso, would you like to 
make any remarks?

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. I certainly would, Mr. Chairman. Thank 
you very much and thank you for playing that When I Grow Up 
from Minnesota. I think it is very telling and very chilling, 
and, as a physician who has worked taking care of families in 
Wyoming, I know the impact of this sort of violence. So I am so 
grateful that you have brought in these experts today and that 
this is our topic.
    Many times over the years this Committee has heard of the 
serious problems of public safety and violence against Native 
women and children. Congress passed the Tribal Law and Order 
Act a year ago. Next week will be one year. The Act was 
intended to address many of these very issues and to also 
increase accountability of Federal prosecutors and to improve 
training and coordination between law enforcement agencies, 
judiciary, and service providers.
    We know that the Tribal Law and Order Act will not solve 
all of the problems, including these problems, of violence 
against Native women, so I see it as a meaningful step, one 
meaningful step in the direction of reducing the danger of 
domestic violence. But we know that violence against Native 
women affects much more than just the well being of that woman, 
and I think that very telling tape that we played, When I Grow 
Up, talks about that, about safety and lack of safety. So it 
profoundly affects children and too often children witness acts 
of violence against their mothers, against their sisters, 
against their brothers, and sometimes, very unfortunately, they 
are themselves the victims of violence and abuse.
    The Congressional Research Service has noted several 
studies which found that the exposure to violence alone has 
harmful affects on our children. So exposure to violence 
impacts a child's emotional and behavioral development, it 
impacts their cognitive functioning, their initiative, their 
personality style, their self-esteem and their self-control, 
and these problems, in turn, can increase the potential for 
future acts of risky behavior, of violence or substance abuse.
    So I look forward to hearing from the witnesses, from the 
experts about what is being done and what can be done in our 
Indian communities, so thank you, Mr. Chairman.
    The Chairman. Thank you for your statement, Vice Chair 
Barrasso.
    Would any of the other members like to make comments? 
Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Akaka.
    I think both you and Vice Chairman Barrasso have covered 
the field here very well in terms of what we are facing. The 
one thing I would add, as a State attorney general, I used to 
deal with this issue and I had a statewide task force to deal 
with violence against women, and the thing that we learned was 
that it is a cycle within families, and it goes from one 
generation to the next generation.
    And the key is breaking the cycle, and the way to do that 
involves a number of approaches, but one of the most effective 
is letting people know that you are going to have law 
enforcement on the beat. And the disturbing thing about this 
GAO report and what we are going to hear in this Committee is 
50 percent of the cases that are presented to United States 
attorneys are not prosecuted.
    So if you don't have the law enforcement person and the 
prosecutor on the beat, then you don't have that enforcement 
element. So we need to find a way where the prosecution moves 
forward in a very aggressive way on these kinds of cases so 
that the perpetrators know that if they do something they are 
going to be prosecuted.
    So with that I want to thank you again, both of you, for 
calling this hearing, and appreciate it very much and yield 
back, and ask my full statement be put in the record.
    [The prepared statement of Senator Udall follows:]

   Prepared Statement of Hon. Tom Udall, U.S. Senator From New Mexico
    Thank you, Chairman Akaka, for holding this very important hearing. 
The rate of violence against women in Indian Country is abhorrent. This 
very vulnerable population struggles to survive domestic violence, 
sexual abuse and assault, and other violent crimes in areas too rural 
for a quick response and full of jurisdictional holes.
    The impact that domestic violence, sexual abuse, and sexual assault 
have on individuals and communities is severe. Survivors face years of 
healing overcoming psychological and physical suffering, and 
communities cannot be whole when many individuals are struggling to 
cope with trauma from violence.
    Addressing violence against women and children should be a priority 
for tribes, federal agencies and congress. Together we must identify 
steps to ensure that every native woman and child can live to her full 
potential free from fear of violence.
    I was appalled by the findings of a recent GAO Report that US 
Attorney Offices have a declination rate of about 50 percent for crimes 
related to Native Americans, and that most of these crimes are domestic 
violence and sexual abuse. We must find a way to equip IHS Hospitals, 
Tribal Law Enforcement, and Federal Law Enforcement with the tools 
necessary to collect evidence and convict violent offenders.
    As congress begins to contemplate reauthorization of the Violence 
Against Women Act, I hope that we, as a committee, can work with the 
Judiciary Committee to make sure that provisions specific to the needs 
of native women are included in the final reauthorization. I look 
forward to hearing from the panels and am anxious to hear their input 
on improving VAWA and federal and tribal judicial responses to violence 
against native women.

    The Chairman. Thank you very much, Senator Udall.
    Senator Franken.

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Thank you, Mr. Chairman, and thank you to 
the Vice Chairman for his words, and to Senator Udall, both of 
which I would like very much to associate myself with. Thank 
you both for organizing this important hearing on how better to 
prevent abuse against Native women. I am very pleased that we 
will hear from two witnesses from Minnesota, Sherry Sanchez 
Tibbetts and Sarah Deer, who are both leaders in the ongoing 
work to end and prevent domestic violence and sexual assault. I 
look forward to hearing from you both.
    As the Chairman noted, as we heard in that chilling ad, the 
startling fact is that one in three Indian women will be raped 
in their lifetime, nearly 40 percent of Indian women experience 
domestic violence, and about 17 percent are stalked each year. 
These statistics, along with anecdotal evidence, make it clear 
that we must break the cycle, as the Senator from New Mexico 
talked about, the cycle of violence, and better protect Native 
women.
    When the VAWA, the Violence Against Women Act, was most 
recently reauthorized in 2005, several critical provisions were 
added to help meet the needs of tribal women, and this was a 
great start in addressing the unique needs of Native victims of 
violence. Yesterday the Judiciary Committee held a hearing to 
highlight the successful efforts of VAWA and we heard from 
advocates who testified on the many components of VAWA that 
have helped women in all our communities be safer.
    But the hearing also made me more aware that this law must 
be updated to the current needs of women. It can better protect 
stalking victims and better help State and local organizations 
increase capacities for emergency and transitional housing, and 
I can't tell you how important that is. And VAWA can also 
better serve Indian women like making sure that no survivor 
ever has to pay a single dime for a rape kit.
    I look forward to hearing from you all on how we can 
continue successful programs and also improve VAWA to help keep 
Native women safer.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Franken.
    Senator Murkowski, from Alaska, would you like to make a 
statement at this point in time?

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Mr. Chairman, I just want to thank you 
for scheduling the hearing this afternoon, this oversight 
hearing, as we examine the very difficult statistics that 
impact American Indian and Alaska Native women. These are 
statistics that none of us are proud of, and whether it is one 
in three Native women that will be raped in their lifetime, or 
one in four, the fact of the matter is that any act of violence 
against any woman is simply unacceptable.
    We have struggled for so long in our State to try to 
improve these statistics and I wish that I could tell you that 
we are making some progress, but I meet with far too many who 
tell me that there is still so much that is kept in the 
shadows, still so much that continues, and as it continues we 
know the destruction that it causes not only to the victim, but 
to the families, to those in the communities.
    Something that I never thought would be a situation in my 
State is that of a growing level of sex trafficking amongst our 
young Native women. I am told that they are considered 
``veratile'' because they can be trafficked either as Asian or 
Hawaiian on the Internet, and we have had some really 
frightening instances of young women coming into town, coming 
in from the villages, basically being picked up off the street 
and lost, gone forever into these sex trafficking rings, and 
the families never knowing where they are or if they will ever 
come back.
    I have had an opportunity to speak with law enforcement 
officers in Anchorage, our largest city, to determine, well, 
how big is this? Is this just one story in the newspaper today? 
And, unfortunately, it is not, and I think we face these 
realities with a sense of helplessness at times.
    Everything that we can do at the Federal level, at the 
State level, and at the local level to shine the light on what 
is going on and to help in any way that we can, we need to do 
so, so I appreciate your efforts here today in helping to shine 
that light.
    The Chairman. Thank you very much, Senator Murkowski, for 
your statement.
    As Chairman, it is my goal to ensure that we hear all who 
want to contribute to the discussion. As I have done in the 
past, I want to remind you of this and tell you that the 
hearing record is open for two weeks from today and encourage 
everyone to submit your comments in written testimony.
    I want to remind the witnesses to please limit your oral 
testimony to 5 minutes. Let me ask the witnesses to please take 
their seats at the table. Thank you.
    Tom Perrelli is the Associate Attorney General at the 
Department of Justice, and Dr. Rose Weahkee is the Director of 
Division of Behavioral Health at the Indian Health Service.
    I want to welcome both of you and ask Mr. Perrelli to 
please proceed with your testimony.

 STATEMENT OF THOMAS J. PERRELLI, ASSOCIATE ATTORNEY GENERAL, 
                   U.S. DEPARTMENT OF JUSTICE

    Mr. Perrelli. Chairman Akaka, Vice Chairman Barrasso, and 
Members of the Committee, thank you so much for holding this 
hearing and shining a spotlight on an issue that cannot get 
enough attention, and for bringing together experts to talk 
about how best to protect, shield, and safeguard Native women 
from violent crime, which is a very high priority for the 
Department of Justice as we work in anticipation of the 
reauthorization of the Violence Against Women Act this year. 
The Department has been engaging in comprehensive discussions, 
including formal consultations with Indian tribes, about how 
best to protect the safety of Native women.
    As I think all of the Senators have indicated, violence 
against Native women has reached epidemic rates, and not simply 
violence, but we see in some communities murder rates of Native 
women at 10 times the national average. Tribal leaders, police 
officers, prosecutors tell us of an all-too familiar pattern of 
escalating violence that goes unaddressed, one beating after 
another, each one more severe than the last, ultimately leading 
to death or severe physical injury.
    Something must be done to end this cycle of violence. For a 
host of reasons, the current legal structure for prosecuting 
domestic violence in tribal communities is not well suited to 
combating this pattern of escalating violence. Federal 
resources are stretched thin and are often distant from where 
the violence occurs, and tribal governments, police, 
prosecutors, and courts, which need to be an essential part of 
the solution, often lack authority to address many of the 
crimes.
    Until this Committee acted last year with the Congress with 
the Tribal Law and Order Act, tribal courts could only sentence 
Indian offenders to one year in prison. It was an extraordinary 
achievement to move that to three years, and we think that that 
will make a material difference in tribal communities going 
forward.
    But still tribal police officers who respond to a domestic 
violence call, only to discover that the accused is a non-
Indian and, therefore, outside the tribe's criminal 
jurisdiction, often mistakenly believe that they can't even 
make an arrest. Not surprisingly, abusers who aren't arrested 
are more likely to repeat and escalate their attacks, and 
research shows that the failure to arrest and prosecute abusers 
only emboldens attackers.
    We see three major gaps that Congress could address that 
involve tribal criminal jurisdiction, tribal civil 
jurisdiction, and Federal criminal law for Federal prosecutors 
in Federal court. The first is that the patchwork of Federal, 
State, and Tribal criminal jurisdiction in Indian Country has 
made it difficult for law enforcement and prosecutors to 
adequately address domestic violence, particularly the kinds of 
misdemeanor domestic violence, such as simple assaults, that 
may ultimately lead to greater violence.
    New Federal legislation could recognize certain tribes' 
power to exercise concurrent criminal jurisdiction over 
domestic violence cases, regardless of whether the defendant is 
Indian or non-Indian. Fundamentally, this builds on the 
philosophy of the Tribal Law and Order Act, which recognized 
that tribal nations with sufficient resources and authority 
will best be able to address violence in their own communities; 
that law offered more authority to tribal courts and 
prosecutors if certain procedural protections were established.
    Second, there is at least one court ruling out there that 
has found that tribal courts have no authority to issue or 
enforce protection orders against non-Indians who reside on 
tribal lands. We think that is actually contrary to what 
Congress tried to do in the Violence Against Women Act and we 
think it is important to clarify that in legislation.
    And the third thing is we have to recognize that Federal 
criminal law has not developed in parallel in this area with 
respect to the States. The States, in the area of domestic 
violence in particular, have developed graduated sanctions for 
particular kinds of conduct, recognizing that you need more 
severe sanctions as the conduct increases in severity.
    Federal law has not matched that over time, so we would 
propose Federal legislation that would, again, more clearly 
track what you see in State law, creating a one-year offense 
for assaulting a person by striking, beating or wounding; a 
five-year offense for assaulting a spouse, intimate partner, or 
dating partner, resulting in substantial bodily injury; and a 
10-year offense for assaulting a spouse, intimate partner, or 
dating partner by strangling, suffocating, or attempting to 
strangle or suffocate.
    We think those reforms would significantly improve the 
safety of women in tribal communities and would allow Federal 
and tribal law enforcement agencies to hold more perpetrators 
of domestic violence accountable for their crimes.
    I thank the Committee very much for focusing on these 
issues and look forward to answering your questions.
    [The prepared statement of Mr. Perrelli follows:]

 Prepared Statement of Thomas J. Perrelli, Associate Attorney General, 
                       U.S. Department of Justice
    Chairman Akaka, Vice Chairman Barrasso, and members of the 
Committee:
    Thank you for inviting me to testify today regarding how best to 
protect, shield, and safeguard Native women from violent crime. The 
Department of Justice has placed a high priority on combating violence 
against women in tribal communities. In anticipation of this year's 
reauthorization of the Violence Against Women Act (VAWA), the 
Department has been engaging in comprehensive discussions, including 
formal consultations with Indian tribes, about how best to protect the 
safety of Native women. We are very pleased that you also are focusing 
on this critically important issue, and we look forward to working with 
you on it in the coming weeks, months, and years.
The Epidemic of Violence Against Native Women
    Violence against Native women has reached epidemic rates. One 
regional survey conducted by University of Oklahoma researchers showed 
that nearly three out of five Native American women had been assaulted 
by their spouses or intimate partners. According to a nationwide survey 
funded by the National Institute of Justice (NIJ), one third of all 
American Indian women will be raped during their lifetimes. And an NIJ-
funded analysis of death certificates found that, on some reservations, 
Native women are murdered at a rate more than ten times the national 
average. Tribal leaders, police officers, and prosecutors tell us of an 
all-too-familiar pattern of escalating violence that goes unaddressed, 
with beating after beating, each more severe than the last, ultimately 
leading to death or severe physical injury.
    Something must be done to address this cycle of violence. For a 
host of reasons, the current legal structure for prosecuting domestic 
violence in Indian country is not well-suited to combating this pattern 
of escalating violence. Federal resources, which are often the only 
ones that can investigate and prosecute these crimes, are often far 
away and stretched thin. Federal law does not provide the tools needed 
to address the types of domestic or dating violence that elsewhere in 
the United States might lead to convictions and sentences ranging from 
approximately six months to five years--precisely the sorts of 
prosecutions that respond to the early instances of escalating violence 
against spouses or intimate partners.
    Tribal governments--police, prosecutors, and courts--should be 
essential parts of the response to these crimes. But under current law, 
they lack the authority to address many of these crimes. Until 
recently, no matter how violent the offense, tribal courts could only 
sentence Indian offenders to one year in prison. Under the Tribal Law 
and Order Act of 2010 (TLOA), landmark legislation enacted last year in 
no small part due to the efforts of this Committee, tribal courts can 
now sentence Indian offenders for up to three years per offense, 
provided defendants are given proper procedural protections, including 
legal counsel. But tribal courts have no authority at all to prosecute 
a non-Indian, even if he lives on the reservation and is married to a 
tribal member. Tribal police officers who respond to a domestic-
violence call, only to discover that the accused is non-Indian and 
therefore outside the tribe's criminal jurisdiction, often mistakenly 
believe they cannot even make an arrest. Not surprisingly, abusers who 
are not arrested are more likely to repeat, and escalate, their 
attacks. Research shows that law enforcement's failure to arrest and 
prosecute abusers both emboldens attackers and deters victims from 
reporting future incidents.
    In short, the jurisdictional framework has left many serious acts 
of domestic violence and dating violence unprosecuted and unpunished.
The Department of Justice's Efforts to Combat This Violence
    The Department of Justice has made, and is continuing to make, 
strong efforts to investigate and prosecute domestic-violence cases in 
Indian country, including, among other things:

  <bullet> Deploying 28 new Assistant U.S. Attorneys whose sole mission 
        is to prosecute crime in Indian country.

  <bullet> Instructing U.S. Attorneys to prioritize the prosecution of 
        crimes against Indian women and children.

  <bullet> Establishing new domestic-violence training programs for 
        law-enforcement officials and prosecutors alike.

  <bullet> Creating a Violence Against Women Federal/Tribal Prosecution 
        Task Force to develop ``best practices'' for both Federal and 
        tribal prosecutors.

    But we believe that more needs to be done.
Areas Ripe for Legislative Reform
    The Department of Justice sees three major legal gaps that Congress 
could address, involving tribal criminal jurisdiction, tribal civil 
jurisdiction, and Federal criminal offenses.
    First, the patchwork of Federal, state, and tribal criminal 
jurisdiction in Indian country has made it difficult for law 
enforcement and prosecutors to adequately address domestic violence--
particularly misdemeanor domestic violence, such as simple assaults and 
criminal violations of protection orders. New Federal legislation could 
recognize certain tribes' power to exercise concurrent criminal 
jurisdiction over domestic-violence cases, regardless of whether the 
defendant is Indian or non-Indian. Fundamentally, such legislation 
would build on what this Committee did in the Tribal Law and Order Act. 
The philosophy behind TLOA was that tribal nations with sufficient 
resources and authority will be best able to address violence in their 
own communities; it offered additional authority to tribal courts and 
prosecutors if certain procedural protections were established.
    Second, at least one Federal court has opined that tribes lack 
civil jurisdiction to issue and enforce protection orders against non-
Indians who reside on tribal lands. That ruling undermines the ability 
of tribal courts to protect victims. Accordingly, new Federal 
legislation could confirm the intent of Congress in enacting the 
Violence Against Women Act of 2000 by clarifying that tribal courts 
have full civil jurisdiction to issue and enforce certain protection 
orders involving any persons, Indian or non-Indian.
    Third, Federal prosecutors lack the necessary tools to combat 
domestic violence in Indian country. New Federal legislation could 
provide a one-year offense for assaulting a person by striking, 
beating, or wounding; a five-year offense for assaulting a spouse, 
intimate partner, or dating partner, resulting in substantial bodily 
injury; and a ten-year offense for assaulting a spouse, intimate 
partner, or dating partner by strangling, suffocating, or attempting to 
strangle or suffocate.
The Views of Tribal Leaders and Experts
    The Department of Justice has consulted extensively with Indian 
tribes about these issues, including at the Attorney General's 
listening conference in 2009, the tribal consultations we held on TLOA 
implementation in 2010, our annual tribal consultations under the 
Violence Against Women Act, and a series of tribal consultations 
focused on potential legislative reforms in June of this year. All of 
these consultations--indeed, all of the Justice Department's work in 
this area, especially in the wake of the TLOA's enactment last year--
have also involved close coordination across Federal agencies, 
including the Departments of the Interior and of Health and Human 
Services.
    Throughout these consultations, the common thread that ran through 
nearly all the tribal input focused on the need for greater tribal 
jurisdiction over domestic-violence cases. Specifically, tribal leaders 
expressed concern that the crime-fighting tools currently available to 
their prosecutors differ vastly, depending on the race of the domestic-
violence perpetrator. If an Indian woman is battered by her husband or 
boyfriend, then the tribe typically can prosecute him if he is Indian. 
But absent an express Act of Congress, the tribe cannot prosecute a 
violently abusive husband or boyfriend if he is non-Indian. And 
recently, one Federal court went so far as to hold that, in some 
circumstances, a tribal court could not even enter a civil protection 
order against a non-Indian husband.
    Faced with these criminal and civil jurisdictional limitations, 
tribal leaders repeatedly have told the Department that a tribe's 
ability to protect a woman from violent crime should not depend on her 
husband's or boyfriend's race, and that it is immoral for an Indian 
woman to be left vulnerable to violence and abuse simply because the 
man she married, the man she lives with, the man who fathered her 
children is not an Indian.
Tribal Jurisdiction over Crimes of Domestic Violence
    The first area for potential Federal legislation involves 
recognizing certain tribes' concurrent criminal jurisdiction to 
investigate, prosecute, convict, and sentence both Indians and non-
Indians who assault Indian spouses, intimate partners, or dating 
partners, or who violate protection orders, in Indian country. Such 
legislation would not remove criminal jurisdiction from any government. 
Rather, it would recognize that a tribe has concurrent jurisdiction 
over a tightly defined set of crimes committed in Indian country: 
domestic violence, dating violence, and violations of enforceable 
protection orders. To the extent those crimes can be prosecuted today 
by Federal or State prosecutors, that would not be changed by enactment 
of new legislation.
    Similar to TLOA, such additional authority would only be available 
to those tribes that guarantee sufficient protections for the rights of 
defendants. Tribes exercising this statutorily recognized jurisdiction 
over crimes of domestic violence should be required to protect a robust 
set of rights, similar to the rights protected in State-court criminal 
prosecutions. This approach would thus build on the Indian Civil Rights 
Act of 1968, as amended in 1986 and 1990, and on TLOA. Tribes that 
choose not to provide these protections would not have this additional 
authority.
    Not surprisingly, expanding tribal criminal jurisdiction to cover 
more perpetrators of domestic violence would tax the already scarce 
resources of most tribes that might wish to exercise this jurisdiction. 
Therefore, new legislation could authorize grants to support these 
tribes by strengthening their criminal-justice systems, providing 
indigent criminal defendants with licensed defense counsel at no cost 
to those defendants, ensuring that jurors are properly summoned, 
selected, and instructed, and according crime victims' rights to 
victims of domestic violence.
Tribal Protection Orders
    A second major area for new Federal legislation would deal with 
tribal civil jurisdiction. New legislation could confirm the intent of 
Congress in enacting the Violence Against Women Act of 2000 by 
clarifying that every tribe has full civil jurisdiction to issue and 
enforce certain protection orders against both Indians and non-Indians. 
That would effectively reverse a 2008 decision from a Federal district 
court in Washington State, which held that an Indian tribe lacked 
authority to enter a protection order for a nonmember Indian against a 
non-Indian residing on non-Indian fee land within the reservation.
Amendments to the Federal Assault Statute
    The third and final major area for Congress to consider involves 
Federal criminal offenses rather than tribal prosecution. In general, 
Federal criminal law has not developed over time in the same manner as 
State criminal laws, which have recognized the need for escalating 
responses to specific acts of domestic and dating violence. By amending 
the Federal Criminal Code to make it more consistent with State laws in 
this area where the Federal Government (and not the State) has 
jurisdiction, Congress would simply be ensuring that perpetrators would 
be subject to similar potential punishments regardless of where they 
commit their crimes. Specifically, new legislation could amend the 
Federal Criminal Code to provide a ten-year offense for assaulting a 
spouse, intimate partner, or dating partner by strangling or 
suffocating; a five-year offense for assaulting a spouse, intimate 
partner, or dating partner resulting in substantial bodily injury; and 
a one-year offense for assaulting a person by striking, beating, or 
wounding. All of these are in line with the types of sentences that 
would be available in State courts across the Nation if the crime 
occurred other than in Indian country.
    Existing Federal law provides a six-month misdemeanor assault or 
assault-and-battery offense that can be charged against a non-Indian 
(but not against an Indian) who commits an act of domestic violence 
against an Indian victim. (A similar crime committed by an Indian would 
fall within the exclusive jurisdiction of the tribe.) A Federal 
prosecutor typically can charge a felony offense (against either an 
Indian or a non-Indian defendant) only if the victim's injuries rise to 
the level of ``serious bodily injury,'' which is significantly more 
severe than ``substantial bodily injury.''
    So, in cases involving any of these three types of assaults--(1) 
assault by strangling or suffocating; (2) assault resulting in 
substantial (but not serious) bodily injury; and (3) assault by 
striking, beating, or wounding--Federal prosecutors today often find 
that they cannot seek sentences in excess of six months. And where both 
the defendant and the victim are Indian, Federal courts may lack 
jurisdiction altogether.
    New legislation could increase the maximum sentence from six months 
to one year for an assault by striking, beating, or wounding, committed 
by a non-Indian against an Indian in Indian country. (Similar assaults 
by Indians, committed in Indian country, would remain within the 
tribe's exclusive jurisdiction.) Although the Federal offense would 
remain a misdemeanor, increasing the maximum sentence to one year would 
reflect the fact that this is a serious offense that often forms the 
first or second rung on a ladder to more severe acts of domestic 
violence.
    Assaults resulting in substantial bodily injury sometimes form the 
next several rungs on the ladder of escalating domestic violence, but 
they too are inadequately covered today by the Federal Criminal Code. 
New legislation could fill this gap by amending the Code to provide a 
five-year offense for assault resulting in substantial bodily injury to 
a spouse, intimate partner, or dating partner.
    And new legislation also could amend the Code to provide a ten-year 
offense for assaulting a spouse, intimate partner, or dating partner by 
strangling, suffocating, or attempting to strangle or suffocate. 
Strangling and suffocating--conduct that is not uncommon in intimate-
partner cases--carry a high risk of death. But the severity of these 
offenses is frequently overlooked because there may be no visible 
external injuries on the victim. As with assaults resulting in 
substantial bodily injury, Federal prosecutors need the tools to deal 
with these crimes as felonies, with sentences potentially far exceeding 
the six-month maximum that often applies today.
    Finally, the Major Crimes Act, which Federal prosecutors use to 
prosecute Indians for major crimes committed against Indian and non-
Indian victims, could be simplified to cover all felony assaults under 
section 113 of the Federal Criminal Code. That would include the two 
new felony offenses discussed above--assaults resulting in substantial 
bodily injury to a spouse, intimate partner, or dating partner; and 
assaults upon a spouse, intimate partner, or dating partner by 
strangling, suffocating, or attempting to strangle or suffocate--as 
well as assault with intent to commit a felony other than murder (which 
is punishable by a maximum ten-year sentence). Without this amendment 
to the Major Crimes Act, Federal prosecutors could not charge any of 
these three felonies when the perpetrator is an Indian. Assault by 
striking, beating, or wounding would remain a misdemeanor and would not 
be covered by the Major Crimes Act.
    We believe that enacting reforms along these lines--dealing with 
tribal jurisdiction over crimes of domestic violence, tribal protection 
orders, and amendments to the Federal assault statute--would 
significantly improve the safety of women in tribal communities and 
allow Federal and tribal law-enforcement agencies to hold more 
perpetrators of domestic violence accountable for their crimes.
    I thank the Committee for its interest in these critically 
important issues and for its support.
    Attachments

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        

    The Chairman. Thank you very much for your testimony, Mr. 
Perrelli.
    Dr. Weahkee, please proceed with your testimony.

    STATEMENT OF ROSE WEAHKEE, Ph.D., DIRECTOR, DIVISION OF 
 BEHAVIORAL HEALTH, INDIAN HEALTH SERVICE, U.S. DEPARTMENT OF 
                   HEALTH AND HUMAN SERVICES

    Dr. Weahkee. Mr. Chairman and members of the Committee, 
good afternoon. I am Dr. Rose Weahkee, Director for the 
Division of Behavioral Health at Indian Health Service. I am 
also a member of the Navajo Nation from Crownpoint, New Mexico. 
I am pleased to have this opportunity to testify on the Indian 
health system's response to domestic violence and sexual 
assault.
    As you know, the IHS plays a unique role in the U.S. 
Department of Health and Human Services to meet the Federal 
trust responsibility to provide health care to American Indians 
and Alaska Natives. The IHS provides comprehensive health 
service delivery to 1.9 million federally recognized American 
Indians and Alaska Natives through a system of IHS-operated, 
tribally-operated, and urban Indian-operated programs.
    Under the Indian Self-Determination and Education 
Assistance Act, many tribes across the Country have assumed 
full authority for all health care delivery within their 
communities.
    We all know that the statistics on domestic violence and 
sexual assault against Native women are alarming. What the 
numbers do not tell us, however, is the tremendous physical and 
psychological toll that sexual assault and domestic violence 
takes on individual societies and Indian Country.
    The President signed the Tribal Law and Order Act on July 
29, 2010, and the various provisions of the Act offer important 
policy support for health, wellness, and public safety in 
Indian communities. The Act requires the IHS Director to 
provide written approval or disapproval of subpoenas or other 
requests from tribal and State courts for the testimony of IHS 
employees. The IHS has drafted a revised delegation of 
authority to include the requirements under the Act and is 
developing additional guidance for IHS programs and facilities.
    The Act also requires the IHS Director to develop sexual 
assault policies and protocols. The IHS has also established a 
national sexual assault policy which is the foundation for 
local policies at hospitals that are operated by the Indian 
Health Service.
    The Act authorizes the Comptroller General to study the 
capability of IHS and tribal programs to collect, maintain, and 
secure evidence of sexual assault and domestic violence 
incidents, and to develop recommendations for improving those 
capabilities. IHS has worked very closely with the Government 
Accountability Office in the development of this study.
    In addition, IHS has implemented a nationally Coordinated 
Domestic Violence Prevention Initiative. This Initiative has 
awarded a total of 65 projects throughout Indian Country and 
IHS tribal and urban Indian health programs. This Initiative 
expands outreach, increases awareness, and supports Sexual 
Assault Nurse Examiner and Sexual Assault Forensic Examiner 
programs.
    In addition, IHS has a number of partnerships. One of those 
is a partnership with the Administration for Children and 
Families, and in that partnership we have funded over 35 sites 
to identify strategies and develop interventions to address 
domestic violence. This partnership has provided the foundation 
for future IHS efforts in the area of domestic violence and has 
led to IHS-wide screening for domestic violence.
    In addition, IHS has an interagency agreement with the 
Department of Justice Office on Victims of Crime which involves 
the Federal Bureau of Investigation and the Department of the 
Interior. The goal of this initiative is to address the needs 
of sexual assault victims in Indian Country and to ensure more 
effective and victim-centered investigations and prosecutions.
    To adequately address the problem of violence against 
Native women, IHS focuses on prevention and treatment services. 
IHS is proactively focusing on behavioral health treatment 
through partnerships and initiatives directed at minimizing the 
causes of such abuse.
    In summary, the IHS and its tribal and its Federal partners 
are committed to maximizing the available resources to provide 
appropriate prevention and treatment services, as well as safe 
environments for Native women and girls.
    This concludes my remarks and I will be happy to answer any 
questions you may have. Thank you.
    [The prepared statement of Dr. Weahkee follows:]

   Prepared Statement of Rose Weahkee, Ph.D., Director, Division of 
Behavioral Health, Indian Health Service, U.S. Department of Health and 
                             Human Services
    Mr. Chairman and Members of the Committee:
    Good afternoon, I am Dr. Rose Weahkee, Indian Health Service (IHS) 
Director for the Division of Behavioral Health. I am pleased to have 
this opportunity to testify on the Indian health system's response to 
protecting, shielding, and safeguarding American Indian and Alaska 
Native women and girls.
    The IHS plays a unique role in the U.S. Department of Health and 
Human Services to meet the Federal trust responsibility to provide 
health care to American Indians and Alaska Natives (AI/AN). The IHS 
provides comprehensive health service delivery to 1.9 million 
Federally-recognized American Indians and Alaska Natives through a 
system of IHS, Tribal, and Urban operated facilities and programs based 
on treaties, judicial determinations, and Acts of Congress. The mission 
of the agency is to raise the physical, mental, social, and spiritual 
health of American Indians and Alaska Natives to the highest level, in 
partnership with the population we serve. The agency aims to assure 
that comprehensive, culturally acceptable personal and public health 
services are available and accessible to the service population. Our 
foundation is to promote healthy American Indian and Alaska Native 
people, communities, and cultures, and to honor the inherent sovereign 
rights of Tribes.
    The IHS works in partnership with the communities it serves as 
such, IHS hospital administration frequently includes Tribal 
representatives who closely participate, as key stakeholders, in the 
health care delivery system. Additionally, under the Indian Self-
Determination and Education Assistance Act (ISDEAA), many Tribes across 
the country have assumed full authority for all health care delivery 
within their communities, including hospital operations. Currently, 84 
percent of Alcohol and Substance Abuse programs and 54 percent of 
Mental Health programs are Tribally operated. Traditionally, behavioral 
health and medical programs, both IHS and Tribally operated, have been 
separately managed; however, it is now a major focus of the IHS to 
reintegrate these programs to provide more efficient and effective 
patient care.
Introduction
    AI/AN women are central to family and community life, yet domestic 
violence, and intimate partner violence, continues to be a serious and 
pervasive problem. Domestic violence often begins with intimate partner 
rape and can end in homicide. The statistics on domestic violence and 
sexual assault against AI/AN women are alarming. According to the 
Centers for Disease Control and Prevention, 39 percent of AI/AN women 
have experienced intimate partner violence--the highest percentage in 
the U.S. \1\ In addition, one out of every three AI/AN women will be 
sexually assaulted in her lifetime, \2\ and AI/AN women are more than 
five times as likely to die from domestic violence-related injuries 
than women of any other race. \3\
---------------------------------------------------------------------------
    \1\ Centers for Disease Control and Prevention (2008). Adverse 
health conditions and health risk behaviors associated with intimate 
partner violence-United States, 2005. MMWR, 57(05), 113-117. Retrieved 
March 2, 2010, from http://www.cdc.gov/mmwr/preview/mmwrhtml/
mm5705a1.htm
    \2\ Sacred Circle and the National Congress of American Indians 
Task Force on Violence Against Women in Indian Country (2006, 
September). Restoration of Safety for Native Women. Restoration of 
Native Sovereignty, 5.
    \3\ Department of Justice, Bureau of Justice Statistics National 
Crime Database.
---------------------------------------------------------------------------
    It is important to acknowledge the role that historical and 
intergenerational trauma has played in the high levels of domestic 
violence and sexual assault against AI/AN women. Colonization brought 
significant changes for AI/AN people--changes that have been attributed 
to the high levels of violent crime in Indian Country, particularly 
violence against women. \4\<SUP>,</SUP> \5\<SUP>,</SUP> \6\<SUP>,</SUP> 
\7\
---------------------------------------------------------------------------
    \4\ BigFoot, D. S. (2000). History of Victimization in Native 
Communities. University of Oklahoma Health Sciences Center, Center on 
Child Abuse and Neglect, grant number 97-VI-GX-0002 (NCJ 213165).
    \5\ Bubar, R., & Thurman, P.J. (2004). Violence against Native 
women. Social Justice, 31(4), 70-86.
    \6\ Poupart, L.M. (2002). Crime and justice in American Indian 
communities. Social Justice, 29(1-2), 144-159.
    \7\ Smith, A. (2003). Not an Indian tradition: The sexual 
colonization of Native Peoples [Electronic version]. Hypatia, 18, 70-
85. Retrieved June 16, 2007.
---------------------------------------------------------------------------
    What the numbers do not tell us, however, is the tremendous 
physical and psychological toll that sexual assault and domestic 
violence take on individuals and society. Besides the obvious costs of 
medical care and evidence collection, there is increasing evidence that 
interpersonal violence is associated with many common health problems, 
including obesity, hypertension, chronic pain, headaches, 
gastrointestinal problems, complications of pregnancy, post traumatic 
stress disorder (PTSD), alcohol use disorders, depression, and anxiety. 
\8\ All of these health problems can impact an individual's family life 
and ability to work. The economic impact of the loss of work and 
productivity is enormous.
---------------------------------------------------------------------------
    \8\ Centers for Disease Control and Prevention (2008). Adverse 
health conditions and health risk behaviors associated with intimate 
partner violence-United States, 2005. MMWR, 57(05), 113-117. Retrieved 
March 2, 2010, from http://www.cdc.gov/mmwr/preview/mmwrhtml/
mm5705a1.htm
---------------------------------------------------------------------------
Tribal Law and Order Act
    The President signed the Tribal Law and Order Act (TLOA) on July 
29, 2010. The Act was an important step toward helping the Federal 
government better address the unique public safety challenges that 
confront Tribal communities. The Act emphasizes decreasing violence 
against women, and is one of many steps needed to address the 
challenges faced by AI/AN women and girls. The various provisions of 
the TLOA offer important policy support for health, wellness, and 
public safety in AI/AN communities and a recognition of the multiple 
factors that influence domestic violence and sexual assault issues. The 
TLOA also has several health specific provisions which will be 
addressed in further detail below. Taken together, these provisions 
should increase the rate of domestic violence and sexual assault 
convictions. Increased convictions may increase the reporting of 
domestic violence and sexual assault incidents by changing the climate 
and norms surrounding violence against women in AI/AN communities.
Testimony and Production of Documents by Federal Employees
    Section 263 of the TLOA requires the IHS Director to provide 
written approval or disapproval of subpoenas or other requests from 
Tribal or State courts for the testimony of IHS employees or for the 
production of documents by IHS employees under the Director's 
supervision. The IHS Division of Regulatory Affairs, on advice from the 
HHS Office of the General Counsel, is the lead representative on 
implementation of Section 263. The IHS has drafted a revised delegation 
of authority to permit IHS Area Directors to authorize testimony by 
Federal employees in criminal and civil cases at the local level. The 
draft delegation of authority notes that: (1) subpoenas and requests 
may be approved if the request is consistent with HHS' policy to remain 
impartial; and (2) subpoenas or requests for documents or testimony in 
violent crime cases which would include sexual assault and domestic 
violence must be approved or disapproved within 30 days after receipt 
or the subpoenas and requests will be deemed approved. The draft 
delegation of authority pertains to factual information obtained by 
Federal employees in carrying out their official duties. It does not 
apply to requests for expert testimony from Federal employees.
IHS Sexual Assault Policy
    Section 265 of the TLOA adds a new section to the Indian Law 
Enforcement Act requiring the IHS Director to develop sexual assault 
policies and protocols based on similar protocols established by the 
DOJ. In response, IHS established a national sexual assault policy, 
which is the foundation for local policies at hospitals managed by the 
IHS as they develop their own standard operating procedures and 
protocols on sexual assault medical forensic examinations. The policy 
establishes a uniform standard of care for sexual assault victims 
seeking clinical services. The policy ensures that the needs of the 
victim are addressed, care is culturally sensitive, patient-centered, 
and community response is coordinated. The policy also includes 
evidence collection guidance which aligns with criminal justice system 
response and subpoena regulations. The IHS consulted with Tribal 
leaders and Urban Indian health directors and is reviewing comments for 
incorporation in future revisions of this policy.
Study of IHS Sexual Assault and Domestic Violence Response Capabilities
    Section 266 of the TLOA authorizes the Comptroller General to study 
the capability of IHS facilities and Tribal programs to collect, 
maintain, and secure evidence of sexual assaults and domestic violence 
incidents required for criminal prosecution and to develop 
recommendations for improving those capabilities. This section also 
requires a report to Congress to assess current readiness and propose 
recommendations for improving response capabilities. IHS has cooperated 
with the GAO in the development of this study, which is due to Congress 
no later than one year after July 29, 2010.
IHS Domestic Violence Prevention Initiative
    In 2009, Congress appropriated $7.5 million to the IHS in the 
Omnibus Appropriations Act, P.L. 111-8, to implement a nationally-
coordinated Domestic Violence Prevention Initiative (DVPI). In 2010, 
Congress appropriated an additional $2.5 million for a total of $10 
million. Prior to developing specific domestic violence and sexual 
assault prevention and treatment programs and initiatives, IHS engaged 
in Tribal consultation sessions with the National Tribal Advisory 
Committee on Behavioral Health (NTAC). The NTAC is composed of elected 
Tribal leaders across all twelve IHS Service Areas. Using the NTAC 
recommendations as a guide, the IHS established the DVPI.
    The DVPI promotes the development of evidence-based and practice-
based models that represent culturally-appropriate prevention and 
treatment approaches to domestic violence and sexual assault from a 
community-driven context. The DVPI expands outreach and increases 
awareness by funding programs that provide outreach, victim advocacy, 
intervention, policy development, community response teams, and 
community and school education programs. The funding is also being used 
for the purchase of forensic equipment and includes case coordination 
of Sexual Assault Nurse Examiner (SANE), Sexual Assault Forensic 
Examiner (SAFE), and Sexual Assault Response Team (SART) programs to 
help victims of sexual assault by training medical personnel on how to 
properly conduct sexual assault medical forensic exams.
    DVPI has awarded a total of 65 projects that include IHS, Tribally, 
and Urban operated programs. These include 49 domestic violence and 
sexual assault community developed models, 8 domestic violence and 
sexual assault Urban Indian health program grants, and 8 SANE/SAFE/SART 
programs. Projects have recently begun reporting on practice- and 
evidence-based outcome measures to assess program effectiveness.
    From August 2010 through January 2011, 56 of the 65 funded programs 
reported data. From these programs, DVPI funding resulted in over 220 
project-affiliated full-time equivalent positions and the development 
of 21 interdisciplinary SARTs. Over 2,100 victims of domestic violence 
or sexual assault were served and over 3,300 referrals were made for 
mostly domestic violence services, culturally-based services, and 
clinical behavioral health services. Over 140 individuals received 
shelter services. Forty-eight adult and 18 child SAFE kits were 
completed and submitted to Federal, State, and Tribal law enforcement. 
Over 9,100 patients were screened for domestic violence and nearly 
9,500 community members were reached through community and educational 
events. There were 37 training events held, including training on 
domestic violence, mandated reporting for abuse, child maltreatment, 
dating violence, and bullying, with 442 participants attending. 
Although the DVPI is in the early stages of implementation, these 
preliminary data strongly suggest very effective programming is taking 
place in Indian Country across a wide range of communities and areas of 
focus.
    In addition to the direct services above, the national DVPI 
conference was conducted last week, July 6-8, in Albuquerque, New 
Mexico. At the conference, DVPI funded recipients were able to 
participate in training, effective dialogue, network, and share their 
program experience and expertise involving the prevention and treatment 
of domestic violence and sexual assault in Indian Country. Over 140 
DVPI program and IHS staff attended the conference which specifically 
covered community awareness planning, advocacy, safety planning, agency 
collaborations (specifically with the Federal Bureau of Investigation), 
impact of battery violence on children, provider self care, working 
with Tribal advocacy programs, engaging men, incorporating traditional 
healing, teen dating awareness, and conducting effective community 
assessments. Specific to the SANE/SAFE/SART programs, the conference 
covered the important role staff play in evidence collection, 
identifying abuse, and understanding local sexual assault laws.
IHS Partnerships
    IHS has devoted considerable effort to develop and share effective 
programs throughout the Indian health system. Strategies to address 
domestic violence and sexual assault include collaborations and 
partnerships with consumers and their families, Tribes and Tribal 
organizations, Urban Indian health programs, Federal, State, and local 
agencies, as well as public and private organizations. We believe the 
development of programs that are collaborative, community driven, and 
nationally supported offers the most promising potential for long term 
success and sustainment. Our partnership and consultation with Tribes 
ensure that we are working together in improving the health of AI/AN 
communities.
    Through a partnership with the Administration for Children and 
Families (ACF) dating to 2002, IHS and ACF collaborated to fund over 35 
sites to identify strategies and develop interventions to address 
domestic violence in AI/AN communities. These domestic violence pilot 
programs trained medical and nursing staff to screen for domestic 
violence and to provide safety planning for all female patients, forged 
community partnerships, and developed policies and procedures on 
domestic violence. In addition, sites developed culturally sensitive 
screening tools, policies and procedures, and informational brochures. 
These programs also educated community members and adolescents on 
healthy relationships, dating violence, and domestic violence. This 
partnership and the work of the domestic violence pilot programs 
provided the foundation for future IHS efforts in domestic violence 
prevention, and led to IHS wide screening for domestic violence, 
routine domestic violence education, and the development of safety 
planning for women. The joint release of a 2010 report by the IHS, ACF, 
and Futures Without Violence offers a series of recommendations to 
ensure that domestic violence victims receive appropriate medical care 
at clinics and hospitals.
    The IHS and the DOJ Office on Victims of Crime (OVC) entered into a 
partnership involving the Federal Bureau of Investigation and the 
Department of the Interior. This partnership is the SANE-SART AI/AN 
Initiative, and is funded through the OVC. The goal of the SANE/SART 
Initiative is to address the needs of sexual assault victims in Indian 
Country that restores the dignity, respect, and mental and physical 
health of victims of sexual assault and ensures more effective and 
victim-centered investigations and prosecutions. Using evidence-based 
practices involving SANEs, SARTs, and victim-centered law enforcement 
practices, the initiative will support victim recovery, satisfaction, 
and cooperation with the Federal criminal justice system, as well as 
supporting victims' of sexual assault and Tribal communities' need for 
justice. To address this overall goal, the project will identify, 
assess, and support existing SANE and SART efforts by providing 
training and technical assistance resources for all of the IHS and OVC 
funded SANE/SART programs, and through the development of comprehensive 
SANE/SART demonstration projects.
Summary
    To adequately address the problem of violence against AI/AN women, 
IHS focuses on both prevention and treatment services. HIS treats 
individuals with associated behavioral health problems, and engages and 
empowers communities to change accepted norms of violence. Prevention 
of domestic violence and sexual assault begins with strong community 
prevention programs.
    Our prevention and treatment efforts must also focus on children 
and adults who have already witnessed or experienced domestic violence 
and sexual assault. Our youth, who have witnessed domestic violence or 
who have experienced child abuse/sexual abuse including incest are at 
great risk of becoming victims or perpetrators of violence and sexual 
assault as adults. Girls who witness the domestic abuse of their 
mothers, or who are victims of childhood sexual abuse are at special 
risk of developing PTSD, depression, and alcohol use disorders 
including binge drinking and alcohol dependence. Because alcohol and/or 
drugs are involved in the overwhelming majority of assaults, the IHS is 
proactively focusing on behavioral health treatment and rehabilitation 
through partnerships and initiatives directed at minimizing the causes 
of such abuse.
    In summary, the safety of AI/AN women and girls is a serious 
problem with multiple personal, familial, and community factors. The 
programs IHS supports significantly improve the lives of AI/AN women 
and girls. The IHS and its Tribal and Federal partners are committed to 
maximizing available resources to provide appropriate prevention and 
treatment services, as well as safe environments for AI/AN women and 
girls in all our communities.
    This concludes my remarks and I will be happy to answer any 
questions that you may have. Thank you.

    The Chairman. Thank you very much, Dr. Weahkee.
    Now I am going to ask the members of the Committee to ask 
their questions before I do, and I am going to ask Senator 
Udall for his questions, Senator Murkowski, and Senator 
Franken.
    Senator Udall.
    Senator Udall. Thank you very much, Senator Akaka.
    Mr. Perrelli, you heard me in my opening talking about how 
enforcement is one of the keys to breaking the cycle of 
violence. I assume you would agree with that; that unless you 
have aggressive enforcement, the word kind of goes out that 
nothing is going to be done on this.
    Mr. Perrelli. Senator, I think that is right. Certainty of 
enforcement is incredibly important in this area.
    Senator Udall. So when you have half the cases coming in, 
reading this GAO report, on the violent crimes it is 52 percent 
where there is a declination, and on the less violent it is, I 
guess, 40 percent, that doesn't send a very strong signal, does 
it?
    Mr. Perrelli. I think on this issue of declinations, let me 
step back and break it down into three pieces and talk about 
how we have tried to address this, because this has been a 
longstanding issue. There is a part of this that is your 
commitment to addressing violent crime in Indian Country and in 
tribal communities and, in particular, in the area of domestic 
violence and violence against children.
    This is an area where we went to our United States 
attorneys in the early part of 2010 and directed them, one, to 
engage with tribal governments, prosecutors on a more regular 
basis than they ever had before; do outreach and have 
operational plans, actual plans about how they are going to 
address the particular violence in those communities.
    Senator Udall. Do you have each U.S. attorney doing that 
now? There are 90-plus U.S. attorneys going out? Because I know 
in New Mexico the new U.S. attorney has a liaison, an assistant 
U.S. attorney working with every tribal community on this. Do 
you have that going on all across the Country, in Minnesota, 
Wyoming----
    Mr. Perrelli. In all of the jurisdictions with Indian 
Country jurisdiction or with tribes in their jurisdictions, 
that is about 45 of the districts, I believe, not just the 
tribal liaison, it is meeting with tribal leaders and actually 
developing a plan, and it is something we require of them in 
the first eight months. We also directed them to focus on 
crimes against Indian women and children, recognizing that this 
had been something that had not been sufficiently addressed 
previously. I think we hope to see the impact of this over 
time.
    Another piece of this, though, is communication, 
particularly you talked about the task force you had. Those 
kinds of partnerships are critically important, particularly 
where you have all of the jurisdictional challenges that you 
have today. So we directed our United States attorneys to 
communicate more effectively about what is going on in 
particular cases, and obviously with the legal mandates of the 
Tribal Law and Order Act, to ensure that there are 
opportunities if the Federal Government is not going to proceed 
with a case, then there is the possibility of a tribal court 
proceeding, depending on the facts, that that might proceed. 
And we are seeing----
    Senator Udall. Let me just stop you a second. That handoff 
is particularly important, because if you have a decision at 
the Federal level in the U.S. attorney's office, a declination, 
they basically say back to the law enforcement agency, we 
aren't going to prosecute this case in Federal court, but if it 
just sits there and the Federal prosecutors don't take all the 
evidence they have, get over with the tribal court system, tell 
the tribal court system we have all of this evidence, we think 
that you could probably move on this with different standards 
and whatever, if there isn't that handoff, it is a big problem, 
isn't it?
    Mr. Perrelli. I agree with that. I think that is absolutely 
right. I will give you an example of something we are doing in 
Montana, where the tribal liaison, every two weeks, is talking 
to the tribal prosecutors and going through what is going on 
with this case, what is going on with that case; tell us, is 
there anything we have missed? Is there something that has been 
reported that we don't know about? Again, trying to build that 
communication so that you, in partnership, can make a decision 
about what is the best way to go.
    I think we recognize that declination rates are likely to 
remain high in tribal communities, in part because sometimes 
cases come in where you decide there wasn't Federal 
jurisdiction or that ultimately you refer a case out. But we 
should be able to do a better job of explaining why those 
prosecutions don't occur.
    Senator Udall. Great. My time is almost out, but I just 
want to emphasize to the Justice Department, and I think each 
of the States you see reflected up here in the 45 U.S. 
attorney's districts, from Alaska to Minnesota to Hawaii to 
Wyoming, we want to see the Justice Department bring those 
declination rates down. And if you are really not going to 
prosecute, try to work with the tribal courts to see something 
is done, because I think the key to breaking the cycle of 
violence is making sure that the perpetrators are brought to 
justice. If they have a sense that 50 percent of the cases 
nothing is going to happen, that is a big, serious problem. 
Thank you.
    And thank you, Chairman Akaka, for the courtesies. I know I 
am running a little bit over here. And I wish I could stay for 
the whole thing. I know we are also going to have a vote, I 
think, in a few minutes, so thank you.
    The Chairman. Thank you very much, Senator Udall.
    Senator Murkowski?
    Senator Murkowski. Thank you, Mr. Chairman.
    Mr. Perrelli, Ms. Weahkee, thank you for being here today, 
for your testimony.
    Mr. Perrelli, you heard my comments about the sex 
trafficking and the concern that I have that we are seeing 
these increased rates in Alaska where young girls are literally 
being hunted. You have these predators that are hanging out by 
the homeless teen shelters, going to the cultural family 
events, the annual AFN convention, the largest gathering of 
Natives in our State, and it is really causing a very real, 
very tangible level of concern within so many of our 
communities.
    Can you tell me what the Department of Justice is doing to 
really target those sex traffickers that are threatening Alaska 
Native women and American Indian women around our Country here 
today? What efforts are underway and what are we doing to 
ensure that these individuals are being prosecuted to the full 
extent of the law?
    Mr. Perrelli. Senator Murkowski, I think you identify what 
is really a scourge. We have seen a couple of major cases in 
Alaska involving Alaska Native women coming, perhaps, for 
health care to Anchorage and ending up in the hands of 
commercial sex traffickers, and we have had prosecutions there. 
This is an extraordinarily difficult set of issues.
    I think we did a focus group last year on this issue, 
focusing on Alaska Native and American Indian women and 
commercial sex trafficking and found a lack of research and 
understanding of the issue. Law enforcement didn't always know 
how to identify the issue, so more training is needed. We found 
that perhaps some of the grant programs might need some 
additional flexibility to allow grantees to focus on 
trafficking issues, and that is something we are looking at in 
the context of the reauthorization of the Violence Against 
Women Act. And I think that we recognize that this is an issue 
that people need to understand better, because I think there is 
a sense that in individual communities they don't even know it 
is happening until there is a major prosecution.
    The last thing I would say is there is a piece that is back 
in the Alaska Native-American Indian community which is really 
focused on youth and protecting our children. There is also a 
piece where some of this activity occurs in major urban areas, 
where we don't necessarily have the culturally appropriate 
services in those areas for Alaska Native and American Indian 
women, and we need to think about how to provide them 
protection, safe places to go when they may be away from home 
and may be in danger.
    Senator Murkowski. Let me ask you, because so many, or 
oftentimes, I should say, it will be a situation where the 
young woman is really a young woman, she is a minor, she is 
under age and has been brought into this prostitution ring. We 
have had Federal laws on the books since the early 1900s that 
make transporting a minor over State lines for the purposes of 
committing a sex act, under the Mann Act, illegal and calls for 
prosecution.
    Well, let me ask it this way. Is it a crime, then, for a 
young woman, a minor, if she is transported from a Native 
village or a reservation in the lower 48 to another part of the 
State for purposes of prostitution, this young woman is being 
used as part of sex trafficking, if we were to clarify that 
that is a crime just as transporting a minor across State 
boundaries is a crime, does that help you at all?
    Mr. Perrelli. Well, I think under at least the TVPA, if 
there is force, fraud, coercion of any kind, there only needs 
to be an effect on interstate commerce, there doesn't need to 
be actual transport across any State line. So I think that at 
least that statute, I think, would quite often deal with, I 
think, the situation that you are talking about. But we should 
at least discuss this issue of moving from Native village to 
outside the Native village. I think this is one we haven't 
focused on.
    Senator Murkowski. I would appreciate that.
    Dr. Weahkee, we are focused today on the impact on Native 
girls and women, but more specifically on women, but I think we 
recognize, we all recognize that children that are in a 
household where there are acts of domestic violence that are 
occurring, those children are impacted as well, and in a way 
that perhaps we don't fully understand. I think we all know in 
our heart it is not good, it is not a healthy situation.
    But I am curious to know whether, within the IHS system you 
have been specifically looking to possible linkages between 
acts of domestic violence within the home that young people see 
and the very elevated rates of youth suicide that we are 
seeing. Are you tracking any of that?
    Dr. Weahkee. Well, the research does suggest that those 
risk factors of domestic violence, sexual assault, and family 
violence are predictors for suicide, so there is a relationship 
between that experience and suicide, and we see that with other 
risk factors as well; child abuse, child sexual abuse. All of 
those contribute to the predictors for suicide, and also in 
terms of historical trauma. So we look at not only the impact 
of historical trauma, but the multiple losses that individuals 
and children and communities are facing, and all of that are 
risk factors for suicide.
    Senator Murkowski. But that is something that you are 
tracking? As we all try to figure out how we deal with this 
epidemic of youth suicide, I think it is helpful to know what 
some of that background is and, unfortunately, it seems that 
far too often it ties back to domestic violence, family 
violence within the home.
    Mr. Chairman, I have gone over my time. I have another 
question for Dr. Weahkee, but I will submit that one for the 
record.
    Senator Franken. Thank you, Mr. Chairman. Thank you, 
Senator Murkowski.
    Dr. Weahkee, I am going to follow up on Senator Murkowski's 
discussion of the effect on children. In your testimony, your 
written testimony, you describe the children who witness or 
experience abuse are at great risk of developing PTSD or 
depression, and even of becoming perpetrators themselves. We 
had this testimony yesterday in the Judiciary Committee on the 
reauthorization of VAWA, Violence Against Women Act, that a 
kid, once a kid witnesses violence, this kind of violence 
against his or her mother, or whomever the violence is against, 
it might be against themselves, they become a different person, 
essentially.
    And we have epidemics not just of the tragic epidemic of 
suicide, but of drug abuse and alcoholism and other mental 
illnesses. In testimony we received yesterday and from your 
testimony, it is very clear that these children require 
treatment to respond to the profound psychological impacts of 
violence upon them.
    Can you speak to what the Indian Health Service is doing to 
make this kind of treatment accessible to children?
    Dr. Weahkee. Well, there is definitely a need for treatment 
and prevention, and, as you mentioned, it really contributes to 
a whole host of physical and emotional issues, school problems, 
bullying. So we are working with your Federal partners in 
coordinating our resources to address those issues because we 
see these issues not only as needing a health response, but 
also we need to involve our schools, our parents, our 
communities, tribal leaders, and our criminal justice system.
    So one aspect is providing the services and making them 
accessible to Indian children, perhaps utilizing telebehavioral 
health services, access to behavioral health providers in 
Indian communities, but also making sure that they have the 
appropriate training to deal with issues of child sexual abuse 
and child abuse in general.
    And, as we know, there is difficulty in terms of accessing 
these services, but we are implementing different efforts to 
try to make access to those services more available to IHS 
tribal and urban Indian communities. So part of it is providing 
the treatment and prevention programs, but also ensuring that 
our providers are trained to respond to these issues and making 
sure that we are coordinating with multiple systems to respond.
    Senator Franken. And what does it mean in terms of a child 
who has witnessed this in Red Lake? What does that mean? Does 
the child go to somebody and say I witnessed this and they 
immediately get treatment, or what does it mean?
    Dr. Weahkee. Well, what it means is it hopefully results in 
access to that treatment. And I am not only talking about the 
behavioral health providers, but ensuring that our primary care 
providers are aware of these issues. We know that a lot of 
times these kids are not going to their behavioral health 
providers for whatever reason. A lot of times they are going to 
their primary care providers or emergency rooms in IHS 
facilities or tribal facilities.
    So it is important for us to make sure that those health 
providers are also screening and making appropriate referrals 
to behavioral health when that is needed.
    Senator Franken. Okay. Ms. Weahkee, Amnesty International's 
2007 Maze of Injustice Study, which Professor Deer, who will be 
testifying later, was instrumental in developing, reports that 
``Although IHS services are free, if an American Indian or 
Alaska Native woman has to go to a non-IHS hospital for a 
sexual assault forensic examination, she may be charged by that 
facility. The IHS has a reimbursement policy, but it is complex 
and survivors may not be aware of it. In some cases the IHS has 
reportedly failed or refused to pay for forensic examination at 
outside facilities.''
    Ms. Weahkee, I have introduced bipartisan legislation that 
would prohibit any State, local, or tribal hospital from 
billing rape victims for their rape kits. Until we get that 
bill passed, can the Indian Health Service commit to working to 
improve this system so that a woman never has to pay one dime 
for her rape kit?
    Dr. Weahkee. Yes. And in the newly established sexual 
assault policy it does state in there that IHS hospitals are 
required to provide free sexual assault forensic examinations 
and full reimbursement. So that is a requirement now as a 
result of that newly established policy, and that was 
established just this past March.
    Senator Franken. I am sorry to go over my time, but that 
policy still doesn't answer the question if a woman has to go 
to a non-IHS hospital.
    Dr. Weahkee. They are required to provide full 
reimbursement as well. Not only provide access to free sexual 
assault forensic examination, but also full reimbursement for 
that service.
    Senator Franken. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Franken.
    Mr. Perrelli, four out of five offenders who sexually 
assault or batter Native women are non-Indian, but the Supreme 
Court ruled that Indian tribes do not have criminal 
jurisdiction over non-Indians who commit crimes on Indian 
lands. Without a legislative fix, the question is how do we 
hold these non-Indian offenders responsible?
    Mr. Perrelli. And, Mr. Chairman, that is certainly the 
situation that we are in now. I think we are trying to do a 
number of things to address that currently. One is, again, the 
notion of partnerships; that Federal, State, local, and tribal 
officials all need to be working together because any 
individual matter, whether a defendant is Indian or non-Indian 
will be determinative of where that person can be prosecuted.
    So we are trying to build partnerships in particular 
between localities and tribal communities. A memorandum of 
understanding, cross-deputization agreements, agreements so 
that the criminal justice system is more seamless that the 
tribal police officer knows that they can arrest the person and 
knows to whom they can hand them off ultimately to be 
prosecuted. So there is that piece.
    Training. We have launched a couple of major efforts in 
training as a result of the Tribal Law and Order Act, so we 
have a significant Indian Country training initiative and are 
working on best practices in conjunction with a task force with 
tribal law enforcement officials.
    But I do think that this is an area that, without 
legislation and/or investment, it is not going to be easy to 
make a major impact on the problem.
    The Chairman. Well, we hope we can work with you on that.
    Dr. Weahkee, the Tribal Law and Order Act required the 
Director of the Indian Health Service to develop standardized 
sexual assault policies and protocol for IHS facilities. The 
Director issued the policy in March. How is the Department 
implementing these protocols agency-wide?
    Dr. Weahkee. Well, obviously one part of the step is to 
actually establish the policy, but we also need to think about 
how that can be implemented throughout our IHS hospitals as 
well. So as part of that we are developing a delegation of 
authority that will give some clear guidance and include the 
Tribal Law and Order Act requirements.
    We are also in the process of developing guidelines for our 
IHS employees and programs so that gives more specific and 
clear guidance and accountability around implementing the 
sexual assault policy. And the other piece is to ensure that 
our providers have training about the Tribal Law and Order Act 
requirements, the implementation of the sexual assault policy, 
and how that works in terms of coordinating those services with 
other agencies like the U.S. Attorney's Office and Federal 
Bureau of Investigation.
    So that is part of what we are also doing, is ensuring that 
we have that coordinated training or cross-training with law 
enforcement and prosecutors so that we understand each other's 
role in addressing domestic violence and sexual assault. They 
understand what we need to do in terms of the health care 
response and our providers have a better understanding of the 
role that they play as well.
    The Chairman. Thank you.
    I am going to call for a second round.
    Senator Murkowski?
    Senator Murkowski. Thank you, Mr. Chairman.
    Senator Franken has brought up the issue of the rape kits 
and the hurdle that has been in place with the cost associated, 
so I appreciate the fact that full reimbursement will be 
applied. One of the things that we anticipate that we will 
learn from the GAO report that this Committee asked for that 
was tasked with reviewing IHS collection and the preservation 
of the forensic evidence, I think there are some things that we 
may learn that will be new. But I think one of the things that 
I am expecting to learn from that is that there are some real 
obstacles in the collection and the preservation of the 
forensic evidence, and particularly when you get out to some 
very remote, very rural areas, as we have in far too many 
places across rural Alaska.
    What is IHS doing to work to help with the training of the 
individuals who will be tasked with this so that the steps are 
taken appropriately? It is a difficult enough situation to be 
the victim, but then to know that you may have lost that 
opportunity to have your matter prosecuted because somebody 
just didn't know how to correctly collect and/or preserve the 
forensic evidence. So what are we doing? Because we know that 
this is going to be an outcome of this GAO report.
    Dr. Weahkee. Well, one piece is with the establishment of 
the sexual assault policy, it gives very detailed information 
in terms of the chain of custody, what needs to be collected, 
how it needs to be stored. So that is provided within the 
sexual assault policy itself.
    As you mentioned, training is also a very significant and 
important issue to ensure that our providers are actually 
implementing the policy and know how to collect forensic 
evidence, how to store it, how to transfer that evidence as 
well. So we have been providing regional training, sexual 
assault nurse examiner, sexual assault forensic examiner, 
sexual assault response team trainings that include the Federal 
Bureau of Investigation, law enforcement, and prosecutors as 
part of that training. So we do plan to continue to do that.
    Just last week we had our Domestic Violence Prevention 
Initiative conference that was in Albuquerque, New Mexico, 
where we provided training to over 140 providers, and I would 
say in the past year we have provided training to over 600 
health care providers on these very issues. So those are one 
way. I think we need to continue to provide that training and 
it needs to be maintained because we know that we have 
different providers coming in or that they need to continue to 
have that continuing education about how to do that.
    And I mentioned earlier the other partnership that we have 
is with the Department of Justice Office of Victims of Crime, 
the Federal Bureau of Investigation and Department of Interior. 
So as part of that, it is an American Indian-Alaska Native 
sexual assault nurse examiner, sexual assault response team 
initiative and we are going to be working together to address a 
lot of these challenges and to work together to come up with 
some solutions. And I think that will also benefit our system, 
but also their systems as well.
    Senator Murkowski. And I appreciate that you are giving 
that considered attention to some of the unique obstacles that 
we face. In most of our facilities you don't have a doctor, you 
don't have a nurse; we have community health aides. They will 
need that level of training. In many areas there may be issues 
that relate to the appropriate storage and whether or not we 
can appropriately and adequately provide for the storage. The 
transport of the evidence, if you are weathered in and there is 
no airplane, there is no way in or out, how do we deal with 
this? So I appreciate that you are working with some challenges 
there that are perhaps a little bit unique, but in fact they 
are part of the daily world that so many in our villages face.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Murkowski.
    Senator Franken.
    Senator Franken. Mr. Perrelli, I just want to talk about 
law enforcement a little bit. We have had testimony and we have 
had hearings here on the level of law enforcement on 
reservations and the problems in recruitment and retention of 
law enforcement officials, and even the level at which the 
funding in reservations where crime may be four times as high 
as in the other areas of America, they are budgeted for two-
thirds what the average jurisdiction would be in America. To 
what extent does the shortage of law enforcement officials in 
Indian Country account for the lack of prosecutions and 
enforcement of domestic violence?
    Mr. Perrelli. I think it has a very significant impact. If 
you have one or two officers who are covering hundreds and 
hundreds of square miles, and for an individual who is faced 
with the prospect of reporting something that has just 
happened, the idea that someone wouldn't get there for a couple 
of hours may well cause someone to say, you know, I am just 
going to have to figure out a different way to deal with what I 
am facing here. So I think we have recognized that. Each of the 
last few years we have asked for funds for additional FBI 
agents. Last year, in our Community-oriented Policing Services 
Grant programs, we were able to fund only one of eight officers 
across the Country, but we tried to fund every single tribal 
police department that applied because we recognized that the 
need was so tremendous.
    So another thing we are doing to try to address this is we 
have designated three community prosecution pilots where we try 
to put a Federal prosecutor who is more engaged with the 
community, either living on or near the reservation, along with 
a victim witness specialist so that you get the opportunity, 
sort of access to victim services as quickly as you can 
possibly get it, and that you hopefully build trust over time 
in working with those individual communities.
    Senator Franken. It seems that we have so many vicious 
cycles in Indian Country. I mean, you talk about what this does 
to the kids who are witness to violence and how that correlates 
with suicide or their being abusers themselves, ultimately, or 
crime or drug abuse or mental health issues, and then you see 
that because of the lack of recruitment of law enforcement in 
Indian Country, that that is a problem.
    And one of the reasons that you have a lack of recruitment 
is that when you are asking someone to be a law enforcement in 
Indian Country, they are going into a situation where the 
schools are not great for their kids, the housing isn't great 
for their family, the employment opportunities aren't terrific 
for their spouse, so we have just these continuous vicious 
cycles that I see over and over again when I am in this 
Committee, and it seems like we have to really make an effort 
to close those cycles.
    And one of them, to me, is making sure that we have the 
proper level of law enforcement, that we have the proper level 
of response to children who are witness to abuse, and that it 
is not enough to say, well, we are trying; it is not enough to 
say we are planning to coordinate; it is not enough to do that, 
and that our job is to make sure that those things become 
realities and they become realities now, when they should have 
been realities yesterday.
    And we have a lot of making up to do because we are seeing 
the legacy of all of this for so many years, and I feel that we 
owe Indian Country a special debt for our own negligence and 
our own guilt in not fully funding education and fully funding 
law enforcement and fully funding health care that we, by 
treaty, we are supposed to do.
    I only have a few seconds, so I am sorry. I am going to 
submit a question on what specific jurisdictional challenges 
you see in bringing these people to justice and what 
legislative fixes you might recommend. Okay?
    Mr. Perrelli. Thank you, Senator.
    Senator Franken. Thank you very much.
    And thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Franken.
    I have other questions that I will submit for the record, 
and I want to thank the first panel very much for your 
responses. It certainly will help us in our work here, and we 
look forward to continuing to work with you on this, and if we 
need to get to the point of legislating some language that will 
help the cause here. So thank you very much, panel one.
    Mr. Perrelli. Thank you, Mr. Chairman.
    The Chairman. I would like to invite the second panel to 
the witness table. On our second panel we have the Honorable 
Donald Rodgers, Chief of the Catawba Indian Nation in Rock 
Hill, South Carolina; Carmen O'Leary, the Director of Native 
Women's Society of the Great Plains in Timber Lake, South 
Dakota; and I would like to ask my friend and colleague, 
Senator Franken, to introduce our next witness, Ms. Sherry 
Sanchez Tibbetts, from Minnesota.
    Senator Franken.
    Senator Franken. Thank you, Mr. Chairman, for this honor.
    Sherry Sanchez Tibbetts is currently the Executive Director 
of the American Indian Community Housing Organization in 
Duluth, Minnesota. This organization was founded in 1993 to 
respond to social issues impacting Native American women, 
including domestic violence and homelessness. It is the only 
provider of culturally specific housing and services in 
Northeast Minnesota. I have had the pleasure of meeting Ms. 
Tibbetts several times. On each occasion I have been impressed 
with her knowledge of the needs of Native women and her passion 
for ending violence and homelessness.
    Ms. Tibbetts, thank you for being here, and please go ahead 
with your testimony.
    The Chairman. Thank you very much, Senator Franken.
    Senator Franken. I am sorry, Mr. Chairman, that is your 
prerogative to ask. I got carried away, I'm sorry.
    [Laughter.]
    The Chairman. I want to welcome our second panel and ask 
Chief Rodgers to please proceed with your testimony.

  STATEMENT OF HON. DONALD W. RODGERS, CHIEF, CATAWBA INDIAN 
                             NATION

    Mr. Rodgers. Yes, sir. Thank you very much. Good afternoon, 
Chairman Akaka and distinguished members of the Committee. My 
name is Donald Rodgers. I am Chief of the Catawba Indian Nation 
in South Carolina. I apologize for my accent a little bit, but 
that's all right.
    On behalf of the United South and Eastern Tribes, I would 
like to thank you for the privilege of testifying in front of 
this Committee today on the issues of violence against Native 
women. Violence against women has been a serious concern of 
Indian tribes for hundreds of years, not just recently.
    This has been going on for hundreds of years. I know that 
it has been an issue for the Catawba Tribe since the mid-1700s, 
when we were ruled by the great King Hagler. King Hagler was a 
renowned chief of the Catawba Indian Nation from 1750 to 1763. 
He is famously remembered for keeping the peace between the 
settlers and the Catawbas in the area, in the upper portion of 
South Carolina.
    However, what I remember him most for, and what really hits 
home today for us all, is his belief that the evils of alcohol 
that led to the victimization and the abuse of women. He made a 
bold statement in the 1760s that was how we should treat our 
women and how we should honor them and how we should stay away 
from alcohol because it would lead us to do things we shouldn't 
do. Over 300 years ago he made this statement, and it is sad 
that King Hagler's desire to see Native women treated with 
dignity and respect has not yet been realized.
    As Tribal Chief, husband, father, and son, I am well aware 
of the violence against women in tribal communities. It is a 
pervasive problem with devastating effects. Studies have shown 
that American Indian and Alaska Native women experience higher 
levels of sexual violence than all other women in the United 
States. Our women are two and a half more times likely to be 
raped or sexually assaulted than any other race in America. One 
in three Native women will be raped during her lifetime. One in 
three. I have a daughter, and whenever I see her with my 
nieces, one of those children will face this.
    The VAWA grants have helped combat violence against women 
in our own community. We use our VAWA grant to fund a counselor 
who provides therapy services for member victims of sexual 
assault, as well as children affected by domestic violence.
    The Houlton Band of Maliseet Indians runs a domestic 
violence program as well and sexual assault program which 
provides crisis intervention and legal assistance, among many 
other things.
    All of these changes are helpful, but they are not enough. 
The Federal Government has a responsibility to assist us in 
safeguarding the lives of Native women. USET fully supports the 
National Congress of American Indians' recommendations to help 
fix this problem. We need to restore tribal criminal 
jurisdiction over all persons and clarify tribal civil 
jurisdiction over non-Indians. There need to be new Federal 
offenses to combat violence against women and there need to be 
ways for tribes who are landless to bring Federal charges. We 
need to create service programs for Native women and we need to 
increase support for tribal domestic and sexual assault 
coalitions.
    Before I close my comments, I figured this would take me a 
short time; I speak a little fast. I am a survivor. I grew up 
in a home with domestic violence, and it was because of 
poverty, it was because of the things that our people did not 
have. I am only 43 years old, and I didn't have running water 
until I was 12. We didn't have electricity until I was 8. I 
never knew what a hot water heater was until I was 19 years 
old.
    So those issues in Indian Country have caused the effect of 
domestic violence to increase. Alcoholism, drug abuse, the 
constant badgering of Indian people by the outside that they 
are no good, that they are worth nothing. We have seen that. I 
grew up that way.
    But I am proud to say that I am a survivor and that through 
church organizations, help from friends and other family 
members have allowed me to become who I am today, and with that 
I will be short to thank you for the opportunity, Chairman, to 
share this information with you, but also the personal 
experience with you. Thank you for the opportunity to speak 
today.
    [The prepared statement of Mr. Rodgers follows:]

  Prepared Statement of Hon. Donald W. Rodgers, Chief, Catawba Indian 
                                 Nation

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Thank you very much, Chief Rodgers.
    Ms. O'Leary, please proceed with your testimony.

         STATEMENT OF CARMEN O'LEARY, DIRECTOR, NATIVE 
              WOMEN'S SOCIETY OF THE GREAT PLAINS

    Ms. O'Leary. Honorable Chairman Akaka and Mr. Franken, 
thank you for inviting me to testify today.
    I am here representing the Native Women's Society of the 
Great Plains. That is a tribal coalition and our membership is 
located in the Great Plains area, North Dakota, South Dakota, 
Wyoming, Montana, Nebraska, and Southern Minnesota. The board 
is composed of representatives from programs on the ground on a 
day-to-day basis who are providing services to the women in our 
Native lands. Some are nonprofit programs, some are tribal 
programs, and we have known about this problem for a long time. 
I used to work in one of those programs.
    Back in 1996, 15 years ago, was when the Department of 
Justice first showed in their statistics that Native women were 
violated at the rate that they are today, and here we are 15 
years later with more statistics and more funding, but we still 
have a ways to go in bringing those numbers down.
    One of the things that I see that has been a problem and 
that we need to have some help with is that our services are 
not stable for a variety of reasons. We have model programs 
that have come out of these statistics, and they have come and 
gone. The instability and ongoing need for services remains a 
great problem in our community. The funding that is often made 
available is discretionary and it is inconsistent.
    There are a lot of reasons that it doesn't stay consistent 
from year to year. We have women that need those services, and 
when they go, the program may no longer be there, and the 
failure to provide services puts these women at an increased 
risk for ongoing violence and sometimes even death. And to 
combat that, I think the funding needs to be stabilized so the 
services are continuous, and not just a duration of a two- or 
three-year program. Funding these programs on a consistent, 
annual basis would directly and positively combat the problem 
of violence in our community.
    Like you all have heard today, we need to have 
accountability for offenders in our communities. We just can't 
take our time in making that happen. What we find in our 
communities due to the lack of accountability is that they gain 
a lot of support. In my own experience this year, I had taken 
leave from work because I was personally involved with some of 
the victims in a case at Federal court. The pedophile had pled 
guilty, and part of his reason for pleading guilty was because 
of the additional sentencing guidelines that have come about 
because of the new laws that have been passed.
    What was appalling was that we had a line officer who 
regionally covers our area for the Bureau of Indian Affairs 
Education and also one of our BIA principals write support 
letters, and the principal was sitting behind the pedophile, 
not the students, and that type of normalization of sexual 
abuse in our communities has got to stop.
    You have to think about what is the impact on the victims 
and their families when prominent people are sitting behind the 
perpetrators, rather than the victims. That is just heaping 
more insult on injury. I just find it completely inexcusable 
that Federal employees with a trust responsibility to those 
they serve could act just so outrageously.
    As I travel across our region, I hear of the barriers that 
our program advocates have to overcome simply to get help for 
those they serve. In some communities there are no local 
services whatsoever; in others there may be a local program, 
but when that program loses its vital funding due to the end of 
a grant term or some other situations, there are no services 
for women in life-threatening situations.
    In one community the advocates have to think through how to 
get women to receive medical services after a sexual assault. 
Sometimes it can be four different places that they have to go 
in that particular community. In another community women are 
taken away to anywhere from 60 to 100 miles to receive medical 
services, and maybe they are taken by ambulance, and they have 
to find their own way back to their communities. Those are the 
type of things that the women in our programs help to overcome 
and to find ways to do that, and when those programs go down, 
once again, those are factors and barriers for women to get 
help and to find justice and the medical services that they 
need.
    So we have to remember that there has to be a plan. There 
needs to be medical response and victim service providers; 
otherwise we re-victimize the women who have been hurt in our 
response, and our lack of response.
    So the other thing I want you to think about is that when a 
program goes down in whatever community it is in and those 
advocates have to go on and find another job or do whatever 
they need to survive for themselves, that that outcome is often 
crushing.
    One of the things that I can recommend, and I have other 
things in my testimony, but that there is the Victims of Crime 
Fund, otherwise known as a VOCA Fund, and one of the ways that 
we have consistent services in State programs is that that goal 
is on from year to year, and part of that, the Fund comes from 
Federal offenders who pay in fines and other penalties, and 
some of them are from jurisdictions in Indian Country.
    But we are not put into that formula at all, any of the 
tribal jurisdictions, and that would be one place that we 
wouldn't have to find new monies to allocate from Federal 
dollars; it is already there, it is capped, and there would be 
a couple of different ways to ensure that we could have 
services from year to year by using the Fund money, including 
tribal programs in tribal areas to have some of that set aside 
to ensure that Native victims have access to services that they 
will need from year to year. The Victims of Crime Act is 
supposed to help rebuild lives, and that is where some of that 
comes from.
    Again, like we have heard today, that many of the episodes 
that happen in Indian Country are perpetrators of another race 
who know that they can continue to offend without any 
consequences due to the unique and confusing jurisdictional 
rules present in Indian Country, and we do need the 
jurisdictional fix that they were talking about earlier that 
would give back the criminal jurisdiction over non-Indians to 
the tribes, because the offender that goes unpunished under our 
current system needs to get what they deserve, and his victim 
or victims may finally achieve some sense of peace knowing that 
justice was served at least at some level, if not at a Federal 
level.
    We heard from Indian Health Service that the impact of 
abuse on women has long-term effects. We know that their 
quality of life and what has happened to them endures long 
after any bruises heal.
    The Chairman. Ms. O'Leary, would you please summarize your 
statement?
    Ms. O'Leary. Sure. My clock is a little bit off, isn't it? 
I'm sorry.
    The Chairman. Your full statement will be placed in the 
record.
    Ms. O'Leary. Thank you.
    Part of what I need to submit further, Your Honor, is 
sexual assault protocol. We have some written testimony that 
wasn't finalized yet for that, and I am glad to have the two 
weeks.
    But Native women deserve an equal chance to rebuild their 
lives.
    Thank you for allowing me to testify here today, and I am 
happy to answer any questions.
    [The prepared statement of Ms. O'Leary follows:]

Prepared Statement of Carmen O'Leary, Director, Native Women's Society 
                          of the Great Plains
    Honorable Chairman Akaka, and other distinguished members of the 
Committee, thank you for inviting me to testify today. My name is 
Carmen O'Leary, and I am a member of the Cheyenne River Sioux Tribe 
located in South Dakota. I am here today representing the Native 
Women's Society of the Great Plains, a tribal coalition that provides 
support to programs serving Native women subjected to violence 
throughout the Great Plains. Our member programs are located in North 
and South Dakota, Wyoming, Montana, Nebraska and southern Minnesota. 
Our board is composed of representatives from each of our member 
programs. We work together toward the overall goal of increasing the 
safety of Native women in our Native lands.
    Our Native nations have known for some time that violence against 
Native women is a problem. But this was confirmed for the first time by 
the federal government in 1996 when the Department of Justice issued a 
report finding that Native women were homicide victims at a far greater 
rate than any other population in the United States. Unfortunately, 
Native Women continue to lead the nation in victimization rates. One in 
three Native women experience rape in our nations today.
    I understand that numbers have been presented time and again about 
the need in Indian Country for increased services and accountability. 
And as a result of these numbers, various model programs have come and 
gone. But the instability and ongoing need for services remains a great 
problem in our communities. The funding that is available is usually 
discretionary and inconsistent. Too often, women in need of services 
find that the local DV/SA program is no longer funded or the services 
are no longer offered. This failure to provide services puts these 
women at increased risk for ongoing violence, and too often, death. To 
combat this, funding needs to be stabilized so the services are 
continuous and not just the duration of a two or three year grant. 
Funding these programs on a consistent, annual basis will directly and 
positively combat the problem of violence in our communities.
    In addition to increasing the availability of services, we need to 
hold offenders accountable by increasing community accountability. How 
much time will it take to overcome decades of behavior that has been 
accepted due to offenders going unpunished and the community accepting 
the offender's actions as the status quo? This normalization of 
violence is imbedded deeply in our society today. I had the sad 
experience to observe one of the worst examples of this acceptance in a 
federal courtroom earlier this year. Thanks to the threat of increased 
sentencing, one pedophile plea bargained and was being sentenced. He 
had pled guilty; there was no jury or assumption of innocent at this 
point in his procedures. The victims who had courageously come forth 
all were current or former students at a Bureau of Indian Affairs 
school. The regional line officer of the Bureau of Indian Affairs and 
one of the principals of a local Bureau of Indian Affairs school wrote 
letters of support. But not for their students--for the pedophile. The 
principal sat behind the pedophile at the hearing, not behind the 
students. I am not sure any of us can understand the impact it must 
have had on these victims and those who love them--that the support of 
prominent people in their community supported the perpetrators, and 
dismissed the victims. Sadly, insult to injury is heaped on those 
strong enough to come forward. I find it completely inexcusable that 
federal employees, with a trust responsibility towards those they 
serve--namely the students--could act so egregiously.
    As I travel across our region, I hear of the barriers that program 
advocates have to overcome simply to get help for those they serve. In 
some communities, there are no local services whatsoever. In others, 
there may be a local program, but when that program loses its vital 
funding, due to the end of a grant term or some other situation, there 
are no other local services for women in life threatening situations. 
In another community, the program staff may have to figure out one of 
four possible sites to take a sexual assault victim. Another program 
had to find a way to get women back from emergency services in a far 
off facility. There, the sexual assault victim was taken by ambulance 
to the emergency room sixty to hundred miles from home, and she was 
left to find her own way back with no resources. In all of these 
situations, very little effort has been made to plan for anything 
except the minimal medical response for victims. And it is the victims 
that suffer, often revictimized by the response process, or lack 
thereof, that they must face.
    The stability and knowledge gained by the staff is lost as they 
have to move to another job and take their experience and expertise 
with them. It does take the knowledge of the local native women to help 
other native women. The base of what works and what is needed is lost 
as a program goes down.
    The long term effects of violence to Indian women are well 
documented. We know that the damage to their quality of life endures 
well beyond the bruises. The fear they endure takes so much from 
women's lives and the lives of their families and our communities. 
Depression, substance abuse, and suicide are often the remnants of the 
violence in the lives of Native women and their children. It is hard to 
put a life back together after such violence. Then pile on the poverty, 
isolation, and blame that Native women subjected to violence must face. 
The outcome is crushing.
    These are the barriers victims, women and children, come up against 
in small communities, over and over, in their hunt for safety and 
perhaps some sense of justice. For years, I have heard the stories of 
women and their children having to overcome huge barriers to be safe 
and survive in some overwhelming situations. Often times, the advocates 
who help victims are also threatened in numerous ways as they seek to 
help women and their children. And in more times than I care to admit, 
the violence escalates to the point of murder. A few years ago, one 
Native woman, a mother of five, disappeared. It took thirty days for 
any agency to launch a search for her. And even though her battered 
body was finally found, her murder goes unsolved to this day.
    Efforts at solutions have been passed, such as the Tribal Law and 
Order Act. These are commendable steps. But additional steps need to be 
taken in this area to fully implement the necessary provisions. One 
important step is a return of criminal jurisdiction to Indian nations 
over crimes of domestic violence, stalking, dating violence and sexual 
assault by non-Indians. This type of jurisdictional fix is critical to 
enhancing the safety of Native Women. Many episodes of violence against 
Native women include perpetrators of another race who know that they 
can continue to offend without any consequences due to the unique and 
confusing jurisdictional rules present in Indian country. With a 
jurisdictional fix that restores tribal criminal jurisdiction over non-
Indians for these limited crimes, the offender that goes unpunished 
under the current system might finally get what he deserves and his 
victim might finally achieve a sense of peace, knowing that justice was 
served.
    The rate of sexual assault is at epidemic proportions. Grant 
programs for tribal programs are not meeting the needs, and accessing 
funds from these programs has many barriers. This often results in a 
mindset that sexual assault, although not acceptable in other places, 
is acceptable in Indian country. Other jurisdictions have access to the 
Victims of Crimes Fund, otherwise known as the VOCA fund. The monies in 
the VOCA fund are monies paid by federal offenders for fines and other 
penalties including fines paid by offenders in federal jurisdictions 
like those who commit crimes in Indian Country. But, under the Victims 
of Crime Act, practically no money is directed at Indian Tribes. States 
receive a formula grant each year; no competition is required so the 
funding for the services is guaranteed from year to year. Tribes need 
the same type of funding set aside to immediately begin to better serve 
Native victims of violence. Such a tribal set-aside would cause no loss 
of funding to others receiving VOCA funds under the existing scheme if 
the amount was above the current cap. Such an ``above-the-cap'' set-
aside for tribes would help ensure that Native victims have access to 
the services they need, while still maintaining the existing set aside 
amounts for the states. This would focus the funds on an area of 
demonstrated need which has been ignored for far too long. The Victims 
of Crime Act is supposed to help rebuild a life through assistance and 
compensation. Native Women victims deserve an equal chance to rebuild 
their lives.
    Thank you for allowing me to present my testimony here today. I am 
happy to try and answer any questions you may have.

    The Chairman. Thank you very much.
    A vote is in order now in the chambers, so, as Chair, I 
call a recess here, subject to the call of the Chair. So 
recess. Thank you. And I will be right back.
    [Recess.]
    The Chairman. This hearing on Native women, an oversight 
hearing, will come to order. We will continue with our 
testimonies, and may I call on Ms. Tibbetts for your testimony.

        STATEMENT OF SHERRY SANCHEZ TIBBETTS, EXECUTIVE 
          DIRECTOR, AMERICAN INDIAN COMMUNITY HOUSING 
                          ORGANIZATION

    Ms. Tibbetts. Thank you, Mr. Chairman. I also want to take 
a moment to thank Senator Franken for his introduction.
    My name is Sherry Sanchez Tibbetts. I am the Executive 
Director of the American Indian Community Housing Organization. 
AICHO is a multi-service nonprofit located in Northeast 
Minnesota. We provide a wide range of culturally specific 
housing and supportive services targeting Native American women 
who experience physical and sexual violence.
    In 1996, AICHO developed the first transitional housing 
program in the State of Minnesota dedicated to serving Native 
American women who have been battered and were homeless. We 
operate one of only a handful of culturally specific domestic 
violence shelters nationwide and provide scattered site 
supportive housing to long-term homeless families, individuals, 
and unaccompanied youth.
    AICHO is also in the process of developing one of the first 
permanent supportive housing projects in the Country for urban 
Indian homeless and precariously housed people. While we 
incorporate traditional American Indian practices and customs 
in all our programs, AICHO serves all persons in need, and we 
recognize that there is an undeniable connection between 
homelessness and violence against women.
    In 2008, after reviewing client files and case situations, 
we found that 46 percent of all the women connected to an AICHO 
program had been involved in trafficking or prostitution. When 
staff realized that nearly one out of every two women who were 
in our office on a regular basis had somehow been commercially 
sexually exploited, they were shocked. Most of the women had 
not presented as trafficking victims, though some had admitted 
that they entered into prostitution or began hooking when they 
were 12 or 13 years old.
    The women seeking services at AICHO had come to our offices 
from other community programs, area reservations, and the 
streets. They presented as just homeless or in need of shelter 
after a boyfriend had beat them up. Some had developmental 
disabilities; most lived at or below the poverty line and had 
few resources available to them. At the same time, there were 
also police reports and stories from mothers of young girls 
being lured off reservations and other areas and taken to ships 
on port, beaten, and gang raped.
    AICHO staff had collected information in response to a 
request from the Minnesota Indian Women's Resource Center. At 
the time, there was a significant lack of information about 
American Indian victims of trafficking and relatively few 
services to help victims find safety and to heal from the 
trauma in a life of prostitution, although there had been 
numerous reports from advocates of Native girls being 
trafficked into urban areas and then forced into prostitution, 
pornography, and strip shows across the State and over State 
lines.
    The Minnesota Indian Women's Resource Center began working 
on a report, Shattered Hearts, which is the first research in 
the Country to analyze the scope of sexual exploitation of 
American Indian women and children in the United States. Among 
the findings, the report stated that historical trauma, multi-
generational grief and loss, compounded by high rates of 
poverty and sexual violence, make American Indians extremely 
vulnerable to sexual predators.
    It has also been our experience at AICHO that many of the 
women seeking our services are experiencing multiple forms of 
victimization at one time. Violence against women occurs on a 
spectrum, and Native women are very likely to experience more 
than one form of violence. Domestic violence, sexual assault, 
stalking, dating violence, and sex trafficking, as well as 
homelessness, are all issues that intersect with one another 
and often co-occur.
    Native American women must have access to multifaceted, 
culturally-based services in order to attain safety, stability 
and autonomy. Organizations serving them, particularly in an 
urban setting, must be able to provide those services in a 
culturally competent manner.
    As a service provider working with Native American women 
who have been commercially sexually exploited, AICHO makes the 
following recommendations for moving forward:
    Develop culturally appropriate housing services, especially 
in urban areas. Emergency and permanent housing with client-
driven supportive services is needed to help Native American 
women and children break away from pimps and those who would 
exploit them, and safely rebuild their lives;
    Provide training and technical assistance to mainstream 
programs to help them identify trafficking victims. Most women 
will not present as a trafficking victim, but will seek 
services for homelessness or other causes; and provide 
assistance to help them deliver services in a culturally 
competent manner; and
    Finally, eliminate the requirement for law enforcement 
certification for domestic sex trafficking victims to quality 
for services funded by Federal dollars. Many of the women 
victimized are in fear of their safety if they get involved 
with law enforcement.
    Thank you, Mr. Chairman, and I welcome any questions you 
may have.
    [The prepared statement of Ms. Tibbetts follows:]

  Prepared Statement of Sherry Sanchez Tibbetts, Executive Director, 
             American Indian Community Housing Organization
    The American Indian Community Housing Organization (AICHO) is a 
multi-service nonprofit located in Northeast Minnesota. We provide a 
wide-range of culturally specific housing and supportive services 
targeting Native American women who have experienced physical and 
sexual violence. In 1996, AICHO developed the first transitional 
housing program in the state of Minnesota dedicated to serving Native 
American women who had been battered; we operate one of only 26 
culturally specific domestic violence shelters nationwide; and provide 
scattered site supportive housing to long-term homeless families, 
individuals and unaccompanied youth. AICHO is also in the process of 
developing a multi-use facility that will create one of the first 
permanent supportive housing projects in the country for urban Indian 
homeless and precariously housed families. While we incorporate 
traditional American Indian practices and customs in all our programs, 
AICHO serve all persons in need.
    In 2008, we found that 46 percent of all the women connected to an 
AICHO program had been involved in trafficking or prostitution. When 
staff realized that nearly 1 out of every 2 women who were in our 
office on regular basis had been commercially sexually exploited, they 
were shocked. Most of those women had not presented as ``trafficking 
victims,'' though some had admitted that they had entered into 
prostitution or started ``hooking'' when they were twelve or thirteen 
years old. The women seeking services at AICHO had come to our offices 
from other community programs, reservations, and the streets. They 
presented as ``just homeless'' or in need of shelter after their 
``boyfriend had beat them,'' and only later acknowledged that their 
``boyfriend'' had actually trafficked or forced them into prostitution. 
Some had development disabilities, most lived at or below the poverty 
line and had few resources available. There were also police reports 
from Duluth, where AICHO is located, showing that Native girls were 
being lured off reservations, taken onto ships in port, beaten, and 
gang-raped.
    As a housing organization, AICHO recognizes that there is an 
undeniable connection between homelessness and violence against women. 
Often, women experiencing physical or sexual violence may have to 
choose between remaining in an abusive relationship or face being 
homeless, which can compound a situation by exposing a woman (and her 
children) to higher risks of assault. The vast majority of Native 
American women who come into shelter are not only being physically and 
emotionally battered by their partners, they are also being sexually 
assaulted. Sexual assault is often a tool that is used by abusive 
partners but it also exists as a historical legacy for every Native 
American woman; whereas the dynamics of domestic violence assert power 
and control of one partner by another, the dynamics of colonization 
asserts the domination of one race and culture by another. Native 
American women are at the receiving end of both types of domination, 
and the experiences of these forms of violence and oppression are 
intertwined.
    AICHO staff collected information in response to a request from the 
Minnesota Indian Women's Resource Center. At the time, there was a 
significant lack of information about American Indian victims of 
trafficking and a relative absence of services to help victims find 
safety and heal from the trauma of life in prostitution, despite 
numerous reports from tribal advocates of Native girls being trafficked 
into urban areas then forced into prostitution, pornography, and strip 
shows across the state, over state lines, and internationally into 
Mexico. MIWRC was working on a report that documented the commercial 
sexual exploitation of Native American women and children. Shattered 
Hearts was the first research in the country to analyze the scope of 
sexual exploitation of American Indian women and children in the United 
States. The report found that historical trauma and multi-generational 
grief and loss, compounded by high rates of poverty and sexual violence 
make American Indians extremely vulnerable to sexual predators. It also 
found that the average age into prostitution was 12 years old.
    Violence against Native American women, whether physical or sexual, 
is grounded in an abuse of power and reinforced through intimidation, 
coercion, and control. Long-term safety and self-sufficiency for women 
who have experienced domestic and/or sexual violence requires far more 
than merely leaving an abusive relationship. Freedom from violence 
requires comprehensive planning and holistic, client-centered 
supportive services. Staff at Dabinoo'Igan, AICHO's domestic violence 
shelter, have often seen that Native women seeking our services are 
experiencing multiple forms of victimization at one time. Violence 
against women occurs on a spectrum and Native women are very likely to 
experience more than one form of violence. Domestic violence, sexual 
assault, stalking, dating violence and sex trafficking are all issues 
that intersect with one another and often co-occur. Native American 
women must have access to multi-faceted, culturally based services in 
order to attain safety, stability, and autonomy; organizations serving 
them, particularly in an urban setting, must be able to provide those 
services.
    AICHO provides the following recommendations for moving forward:

        Develop culturally appropriate housing services, especially in 
        urban areas to help protect and safeguard Native American women 
        and children. Emergency and permanent housing with client 
        driven services is needed to help Native American women and 
        children break away from pimps and safely rebuild their lives.

        Technical assistance and training for mainstream programs is 
        needed to help identify trafficking victims (most do not 
        present as such) and deliver culturally competent services. 
        Native Americans are disproportionately impacted by violence 
        and over-represented in domestic violence shelters.

        Eliminate the requirement for law enforcement certification for 
        domestic sex trafficking victims to qualify for services funded 
        by federal dollars.

    Thank you for bringing attention to the sexual exploitation of 
American Indian women and children. Your help is needed to ensure that 
they receive the care and services they need in order to rebuild their 
lives.

    The Chairman. Thank you very much, Ms. Tibbetts. We have 
some questions here and I would like to ask Senator Franken 
whether he has any questions of the second panel.
    Senator Franken. Thank you, Mr. Chairman.
    I am sorry I missed your oral testimony, but I did get to 
read it. Ms. Tibbetts, of course, it is great to see you again, 
and thank you for being here today. A 2006 Wilder Foundation 
study on homelessness in the Minnesota Indian community found 
that 36 percent of respondents statewide had stayed in an 
abusive situation because of lack of other housing. Let me ask 
you about that because I have been places in the States and am 
interested in the whole issue of domestic violence and know the 
importance of emergency housing and transitional housing. How 
does a lack of affordable housing in Indian Country 
specifically contribute to the cycle of violence?
    Ms. Tibbetts. Thank you, Senator Franken. I am familiar 
with the Wilder study, and it also shows that Native American 
people are disproportionately represented in homelessness. I 
think the biggest impact that the lack of affordable housing 
has on Indian communities is that there are fewer resources for 
women to go to; they will stay in an abusive relationship.
    There are fewer domestic violence shelters available, 
especially out in Northern Minnesota. To put it in context, in 
Northeast Minnesota, the seven counties around Duluth, which 
includes three reservations, have two domestic violence 
shelters, for a total of about 42 bed spaces.
    If women are unable to access emergency shelter and 
transitional housing or affordable housing isn't available to 
them, they have no place to go. They may end up back with their 
abuser; they may end up at a homeless shelter or out on the 
streets and further victimized by those who are predators in 
those areas.
    Transitional housing is important to help families, but 
they also need long-term housing; they need a place to go after 
they have been in an supportive environment.
    Senator Franken. According to the testimony yesterday we 
had in Judiciary on VAWA, maybe the most important period of 
time for a woman leaving an abusive situation is right after 
she has left, and the person who testified basically said that 
it is so important to engage in planning when you leave a 
situation.
    Anyone want to speak to that, Ms. O'Leary or Ms. Tibbetts?
    Ms. O'Leary. Safety planning is what I was talking about 
services, and I am not sure how much of that you were here for, 
services is what the advocates do on the ground in the programs 
that are funded, and safety planning is a real important time 
so that women take with them the basic things that they are 
going to need for themselves and their children, just to help 
them survive in a shelter, be it their Social Security numbers, 
IDs, things like that, who they can call for help, how they can 
get transportation.
    In our area, transportation is a big deal because of large 
geographical areas that have to travel to get to a safe place. 
All of that is part of the services that often go down because 
of the discretionary funding and inconsistent funding that has 
been happening in Indian Country.
    Senator Franken. Thank you.
    Ms. Tibbetts, your organization, the American Indian 
Community Housing Organization in Duluth provides culturally-
specific programs for domestic violence victims, including a 
domestic violence shelter, transitional housing, and advocacy. 
These programs are so important to Native women and your 
organization does a great job with them. Can you talk about the 
need for culturally-specific programs and why traditional 
programs may not meet the needs of all victims?
    Ms. Tibbetts. Thank you, Senator.
    Most of our services are geared towards Native women who 
have been battered. It is important to have culturally-specific 
services in place on many different levels. Women may not feel 
comfortable accessing mainstream programs; mainstream programs 
may not be readily available. The need for culturally-specific 
services is especially important in urban areas where women who 
have been battered may have been isolated from their family or 
their community, and we have heard earlier today that most 
perpetrators of violence against Native women are non-Native 
people. To have a place that provides culturally-specific 
services helps in the healing process for women who have been 
victimized that way.
    Senator Franken. Thank you.
    I am out of time, but I would feel remiss if I didn't thank 
Chief Rodgers, Chairman Rodgers for your very moving testimony.
    May I ask one question of the chairman?
    The Chairman. Go ahead.
    Senator Franken. Not to go into any specifics of your 
situation from which you are a survivor, can you speak a little 
bit to the psychological ramifications of either being a victim 
or a witness to domestic abuse?
    Mr. Rodgers. Yes, sir. Thank you, Senator. I will be able 
to share just a moment. When I grew up, my mother was a victim 
of domestic violence, and it turned to the children at times, 
and psychologically it can do one of two things: it can turn 
you into a perpetrator or it can turn you into an advocate, and 
I have turned to be an advocate.
    One of the things you asked earlier about, and if I can 
allude to the question, women, when they are involved in 
domestic violence, they love their husbands or love their 
partner, whoever they are with. I grew up with the saying, as I 
was somewhat being taught in many different ways from some of 
our elders, is that you can love that person, but you sure can 
hate what they do. And it takes a community of friends and 
other family to get those people out of those situations, and 
Indian women specifically are strong-willed. Right, ladies?
    [Laughter.]
    Mr. Rodgers. Very strong-willed, and it is tough for them 
to say I am weak, and I have seen that.
    But psychologically speaking, it made me stronger as a man, 
as a dad, as a husband, as a father, especially as a father of 
a daughter. Again, it makes you realize that you don't want to 
continue with this cycle. And there is spirituality that goes 
along with this. One needs to find spirituality, whether 
traditional spirituality within their own Native culture or 
whether it is external with modern religion. And once you find 
that spirituality you can overcome that and many, many 
obstacles that are placed before you.
    And I am just grateful that I had a strong-willed mom who 
was my rock. My dad passed away when I was 17; my mom passed 
away just a few years ago. And for her to go through life as 
she did and remain strong-willed as she was was phenomenal.
    But she was a stalwart to other women because she died 
blind, she died a double amputee, she died of heart disease and 
liver and kidney failure, but until the day she died she worked 
for herself. So being a victim and living like that and 
overcoming all those obstacles made her a whole lot stronger. 
So psychologically you do one of two things, you either become 
a perpetrator or you become an advocate. So I am proud to say I 
am an advocate.
    Senator Franken. Thank you. Thank you for your advocacy.
    Mr. Rodgers. Yes, sir. Thank you.
    The Chairman. Thank you, Senator Franken.
    Chief Rodgers, what do you think tribal leaders can do to 
eradicate violence against Native women in Native communities?
    Mr. Rodgers. Mr. Chairman, I think that we, as tribal 
leaders, need to take a stance: one, being advocates against 
domestic violence, but also allowing and creating programs 
within your tribal communities that will work. We have a social 
services department that uses the VAWA grant to do several 
different things with, but it takes the advocacy of the tribal 
committee to go out and say these are the things that we know 
are problems and these are the things that we approve our 
dollars to be used for. It is down to my signature on what 
grants come to the tribe, and so tribal leaders need to be 
advocates for those things that are problems.
    I was discussing with Indian Health Service about tribal 
leaders have so much animosity toward Indian Health Service, 
and I ask myself. I serve on the Direct Service Tribes Advisory 
Committee and I have asked myself why, as I was traveling the 
Country, why do tribal leaders have so much animosity toward 
Indian Health Service. It is because their heart has grown 
fainter in one way: they have failed to realize what they need 
to be thankful for and be grateful for what they have, than 
asking for more that they don't need. So in my position, and I 
share my personal position, we as tribal leaders need to work 
hand-in-hand with the programs that are available and advocate 
those in our own tribal communities to allow those to progress.
    We can't fight it if we don't have people in place to fight 
it. And that is kind of an oxymoron. Here we are talking about 
domestic violence and we are fighting the problem. But we need 
to put people in place who are there who can assist those 
people who are in these situations, and we need to make sure 
tribal dollars are allocated for that, make sure that we 
advocate for those grants and support those grants that support 
their services, as well as, you know, one thing that I guess 
you see I have a tender heart, and it is a fortunate and 
unfortunate thing. Sometimes it is good, sometimes it is bad.
    But as a tribal leader, some tribal leaders are looked to 
as spiritual leaders, and I have sat in my council with females 
who come who are victims of domestic violence, with their 
social services director and help them and listen. Tribal 
leaders need to listen. They stop listening to their members 
many times over and they need to be good listeners and help 
them and advocate for those programs.
    Thank you, sir.
    The Chairman. Thank you for your response, Chief Rodgers.
    Ms. O'Leary, how do we improve victims' access to medical 
services, especially in rural Native communities?
    Ms. O'Leary. Your Honor, I think that having services in 
our communities, increasing those services and stabilizing 
those services so when that message gets out that they are 
still there. We all know that victims don't always come forward 
right away. A couple weeks ago I was talking to a friend I 
didn't know about that she had been a sexual assault victim 
many years ago, and she was talking about reporting, even if it 
wasn't for the conviction, just so that the record was there 
that that had happened.
    At the time it happened to her there were no services in 
our communities for her to report to. What I see time and again 
out in the other communities, where we have started up programs 
and then there is no continuity, maybe they heard about the 
program on the radio or something and then when they went to 
access it it wasn't there.
    So I think that those service providers, those community 
women, the advocates, are the ones that are going to make sure 
that women are able to access services; they are going to help 
them walk through that procedure and they are going to be there 
from day to day and year to year. That is what I see that is 
working. Thank you.
    The Chairman. Thank you.
    Ms. Tibbetts, I just found out that domestic violence 
shelters have been closed in Northeast Minnesota since the 
budget crisis, but homeless shelters remain open. What are the 
victims doing for shelter?
    Ms. Tibbetts. Mr. Chairman, it is not just in Northeast 
Minnesota; it is throughout the State of Minnesota. The State 
is in a budget crisis and our government shut down. Many 
domestic violence shelters depend on State funding to operate. 
On the first day of the shutdown, there were two shelters in 
the Twin Cities, one was a culturally-specific shelter; it shut 
down. This last week there were two shelters in Northeastern 
Minnesota; they have both closed as well, including AICHO 
shelter.
    What it means is that there are even fewer places for 
victims to go to. We have been making arrangements to have any 
calls that come in referred to other programs. There is a 
program I Superior, which is literally across the bridge from 
Duluth, where we are able to take Minnesota residents to get 
housing. Because there are shelters that have been closed, the 
crisis is going to get worse and worse for victims and their 
children, with fewer options for them to go to.
    You did mention that homeless shelters are now up and 
running. That is correct. The problem with homeless shelters, 
when domestic violence victims or women who have been 
physically or sexually assaulted go there, the staff at 
homeless shelters may not be trained to recognize the trauma 
that some women have experienced. It is also common for 
predators to hang out at the homeless shelters and lure 
vulnerable women and young girls into prostitution and 
trafficking situations there as well.
    The Chairman. Your city, Ms. Tibbetts, Duluth, Minnesota, 
has been referenced in the study of Shattered Hearts as having 
Native women and girls trafficked for prostitution on ships in 
the Port of Duluth. Can you tell the Committee what you think 
needs to be done to stop the trafficking of Native women?
    Ms. Tibbetts. I think as a service advocate, there are two 
things first. We need to raise community awareness about what 
is going on. When we talk about trafficking, especially in the 
Duluth area, people often refer to the situation at the docks 
and say, well, that has always been going on, but that is just 
there. They don't realize the magnitude of the problem.
    The other thing is I think there needs to be clearer 
jurisdictional authority over this issue. For example, the 
Coast Guard attends a local trafficking and task force 
committee. I spoke to the Coast Guard regarding any incidences 
of women being trafficked onto ships. They have assured us that 
with increased security matters that this happens very rarely, 
but that really the Port Authority or Customs would be the 
folks that we needed to talk to.
    When speaking to Customs, they said, yes, they are the 
first people onboard of a vessel, and they will certify that 
vessel to enter the port, but once the vessel goes into the 
channel, it becomes a local water craft and subject to the 
local police department. The local police are also on our task 
force and they have reported instances before, in the past, of 
reports.
    So I think one of the things that needs to be clarified is 
who actually is in charge in that situation. It is unclear, as 
a service provider working with these different agencies, who 
would be the primary contact.
    The Chairman. Well, thank you. That is something that we 
need to work on. Jurisdiction is something we need to look at.
    I do appreciate your responses and thank you for your 
patience, but this is an issue that we need to continue to work 
on as quickly as we can and see what we can do to bring about 
changes that are needed. Your responses will be helpful to us 
and, as you know, we are really looking at what needs to be 
legislated to help you with this kind of problem.
    Senator Franken, do you have any additional second round 
questions for this panel?
    Senator Franken. No. As a matter of fact, Mr. Chairman, I 
am kind of eager to get to the third panel so I can introduce 
Sarah Deer, because I have to preside soon and have another 
thing I have to do. But I want to thank the panelists, all of 
you, for your testimony.
    The Chairman. Thank you.
    Well, I want to thank the panel, too, very much for your 
responses and look forward to working with you. Thank you very 
much.
    I would like to call on our third panel, Mr. Mickey Peercy, 
the Executive Director of Health Services of the Choctaw Nation 
of Oklahoma, and I would like to ask my colleague, Senator 
Franken, to introduce our witness from Minnesota, Ms. Sarah 
Deer.
    Senator Franken.
    Senator Franken. Thank you, Mr. Chairman. It is my honor to 
introduce Sarah Deer. Sarah is an Assistant Professor at 
William Mitchell College of Law in St. Paul, Minnesota, a 
member of the Muskogee Creek Nation. Professor Deer has 
dedicated her time and her career to ending violence against 
Native women. She has volunteered as a rape crisis counselor 
and chose to attend law school so that she could respond to the 
unique legal needs of Native survivors of sexual assault.
    Professor Deer contributed extensively to Amnesty 
International's groundbreaking 2007 Maze of Injustice report on 
violence against Native women. Last year she received the 
prestigious Sheila Wellstone Award, which recognizes 
individuals who share the great Sheila Wellstone's vision of 
safe, healthy homes and communities. Earlier this year 
Professor Deer was recognized by the Department of Justice for 
her commitment to victims of crime. Each time I have met her I 
have been moved by her commitment to ending violence against 
Native women.
    Professor Deer, thank you so much for being here.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Franken.
    So I would like to ask Mr. Peercy to please proceed with 
your testimony.

STATEMENT OF MICKEY PEERCY, EXECUTIVE DIRECTOR, HEALTH SERVICES 
                 OF CHOCTAW NATION OF OKLAHOMA

    Mr. Peercy. Thank you. Good afternoon, Mr. Chairman, 
Senator Franken.
    Also, in providing written testimony, I would ask that 
folks please take a look at that as we go and later on because 
I can't do justice with the five minutes, but I am going to 
give it my best shot. And on behalf of Chief Gregory E. Pyle, 
Chief of the Choctaw Nation of Oklahoma, I bring greetings, 
extend to you the support of the people of the Choctaw Nation. 
My name is Mickey Peercy. I represent the Choctaw Nation, the 
third largest tribe in the United States, over 206,000 members 
across the United States, some in the areas that each member of 
the Committee represents.
    We are here today to speak in strong support of the 
reauthorization of the Violence Against Women Act. The Act is 
the nexus to protect, shield, and safeguard our sisters, 
mothers, and daughters against cruelty and violence. I thank 
you for inviting the Choctaw Nation to provide testimony.
    Violence against women wasn't acceptable in the early years 
of the Choctaw Nation. It is not a part of the culture. It is 
not a part of any culture, it is something that is brought on 
and learned. It was only after colonization that the social 
maladies began to affect the Choctaw people.
    The Choctaw Nation is committed to treating and preventing 
these travesties. Keep in mind the Choctaw Nation is an off-
reservation tribe with an area population of 12,000 square 
miles, roughly the size of Vermont. And within that 12,000 
square miles we have 84 independent school districts. So you 
can tell the scope of what we are dealing with.
    We know that the things that contribute to domestic 
violence, violence against women, violence against children 
come from somewhere, and we think a lot of the contribution 
comes from poverty, comes from lack of education, unemployment, 
alcohol and substance abuse. And the only way you can really 
end these things long-term is to deal with those issues.
    The Choctaw Nation works hard to make sure folks are 
employed and also to make sure that there is career development 
for those who don't want to go to college, and scholarships for 
those who want to. Also keep in mind we provide substance abuse 
programs for those who are dealing with those issues.
    We have to start there. I have heard it said several times 
about the cycle. It is very true, it is a cycle. And what we 
are doing is attempting to treat it in a multifaceted sort of 
way. We do a lot of things with prevention. The Choctaw Nation 
is treating those who are already involved in the violence 
cycle and also making efforts to stop the violence before it 
starts. We have found that violence begets violence. It is a 
cycle. We view this, again, multifaceted.
    I think I was asked to be here because we have some 
programs going forward and I wanted to bring as many of those 
out as possible in a very short amount of time.
    First, we have some for the younger kids, Better 
Beginnings. Those are zero to five in the early childhood 
development sorts of programs and dealing with families.
    We have support for pregnant and parenting teens projects. 
Keep in mind, in one small rural school we have four teenagers, 
we have two girls that are pregnant by two young men in that 
school system, and we are dealing with that. None of them are 
old enough to drive. That is a little frightening. So we work 
with those kids and we work with their parents in an effort to 
do everything we can to make sure that those social issues are 
taken care of.
    Family Preservation supports healthy paternal behaviors, 
and in 2010 we served more than 2,000 women and families.
    It has to be a collaboration. It has to be partnerships. We 
partner with drug courts, with all areas of prosecutors, law 
enforcement, social services agencies through the State. We go 
to SAMHSA, we deal with DOJ. Many of our dollars come from 
grant programs and we fight hard for those grant programs.
    I also wanted to mention a project, Falummichechi. It is 
150 children who deal with second graders. They go into the 
schools and deal with second graders. That program received an 
Achievement of Excellence Award from Harvard University and we 
are very proud of that program. That is, again, with the 
youngsters.
    And we also, in terms of the clinical, I have to say before 
my time runs out, we work very hard on the clinical aspect. We 
do have the sexual assault response team in place. We work very 
hard. We have, within our hospital, five SANE nurses, sexual 
abuse nurses. All five of those nurses are certified 
internationally. And that doesn't happen very often; it sure 
doesn't happen in Indian Country. We also have 16 advocates for 
sexual abuse.
    More programs than I can mention. We are trying very hard 
to stop the cycle. We have a long way to go. What we want to 
do, again, is treat those things that are happening on an 
everyday basis, protect the women, protect the children, but 
also, starting with the youngsters, make sure that we stop the 
cycle so we are not here 20 years from now talking about the 
same things with the same problems.
    Please, those who are interested, please read the written 
testimony. Thank you, sir.
    [The prepared statement of Mr. Peercy follows:]

    Prepared Statement of Mickey Peercy, Executive Director, Health 
                 Services of Choctaw Nation of Oklahoma

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Thank you very much for your testimony, Mr. 
Peercy.
    Ms. Deer, will you please proceed with your testimony.

        STATEMENT OF SARAH DEER, AMNESTY INTERNATIONAL, 
        ASSISTANT PROFESSOR, WILLIAM MITCHELL SCHOOL OF 
                              LAW

    Ms. Deer. Thank you, Chairman.
    On behalf of Amnesty International and Amnesty 
International's American Indian and Alaska Native Advisory 
Council, I would like to express my deep appreciation and 
thanks for inviting me to testify before the Senate Committee 
on Indian Affairs hearing today.
    As you may know, Amnesty International is a worldwide 
grassroots human rights organization with over 3 million 
members worldwide. On behalf of AI's nearly half a million 
members here in the United States, I thank you for holding this 
important hearing and for the opportunity to testify before 
Congress and this Committee on some of the grave human rights 
abuses that American Indian and Alaska Native women face here 
in the U.S.
    While many of these abuses exist in the broader context of 
both current and historical injustices, my testimony will focus 
on the interrelated issues of sexual violence, trafficking and 
prostitution, and disparities in health care.
    As other hearings have documented, it has been challenging 
for the legal system to respond to the high rates of rape in 
Indian Country. There is a complex interrelation between 
Federal, State, and tribal jurisdiction that undermines tribal 
authority and often allows perpetrators to evade justice. 
Tribal and Federal agencies responsible for providing the 
services necessary to ensure that survivors receive adequate 
care and that perpetrators are held accountable for their 
crimes are chronically underfunded and without the appropriate 
resources to uphold agency duties. Tribal governments are 
hampered by a complex set of laws and regulations created by 
the Federal Government and the Supreme Court that make it 
difficult, if not impossible, to respond to sexual assault in 
an effective manner.
    With the Administration's long-awaited endorsement of the 
United Nations' Declaration on the Rights of Indigenous Peoples 
this past December 2010 and the Tribal Law and Order Act of 
July 2010, the U.S. now has both a national and an 
international rights framework with which to address the issues 
that Native peoples face here in the United States.
    As one Native advocate put it, sexual assault rates and 
violence against Native women did not just drop from the sky; 
they are a process of history. Many of the current issues that 
American Indian and Alaska Native women face in the United 
States can be traced back to the legacy of abuse and systemic 
assault on Native culture, land, and people as part of the 
colonization of the Americas. Gender-based violence against 
Native women was used by settlers as an integral part of 
conquest and colonization.
    The United States Federal Government has historically made 
a series of attempts to compel American Indian and Alaska 
Native peoples to assimilate into the dominant Euro-American 
society, and a number of policies historically designed to 
promote assimilation have contributed to the breaking up of 
tribal societies. One such policy in the 1800s involved 
removing children as young as five from their homes and 
compelling them to attend boarding schools. Many of these 
historical actions would meet the legal definition of human 
trafficking if they happened in 2011.
    I am happy to share with this Committee that in my 
professional capacity as an Assistant Professor at William 
Mitchell College of Law, I have been working in partnership 
with my colleagues at the Minnesota Indian Women's Sexual 
Assault Coalition and Prostitution Research and Education to 
conduct additional research and analysis on the issue of 
prostitution in Indian Country, and will soon be releasing our 
findings and report in October. It is our hope that the report 
will shed additional light on the depth and severity of the 
issue and that the needs assessment will have an impact on the 
culturally appropriate services and advocacy.
    The two organizations interviewed 105 American Indian women 
who were prostituted and trafficked in Minnesota and we are 
still engaged in the empirical data analysis, but of the 105 
women interviewed in the study, their ages ranged from 18 to 
60, with an average of 35. Two-thirds of the women had been 
used for sex by up to 300 men, with a third of the women 
reporting that they had been used for sex by between 400 and 
1,000 men. The women also reported that 70 percent of the women 
that they knew in prostitution had been lured, tricked, and 
trafficked into it, and 95 percent said they wanted to escape 
prostitution.
    As shocking as these statistics are, even more horrifying 
is that this information is but a glimpse into the unknown 
larger picture of which little research and data collection has 
been done, and we look forward to sharing the final report with 
the Committee.
    In closing, I would like to impress upon you the importance 
of prioritizing Native women's health and safety for the long 
term, and it will take many, many years, and perhaps even 
decades, to reverse the alarming trends that have only recently 
been documented, but have been ongoing for hundreds of years. 
We need to know that the Federal Government will stand with us 
for the foreseeable future, until such time that Native women 
are restored to their traditional status of honor within tribal 
communities.
    Thank you very much for your time and consideration. Mvtol.
    [The prepared statement of Ms. Deer follows:]

  Prepared Statement of Sarah Deer, Amnesty International, Assistant 
               Professor, William Mitchell School of Law

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you very much, Ms. Deer, for your 
testimony.
    Mr. Peercy, you mentioned a number of important health 
services provided by your tribe for sexual assault victims, 
including forensic examiners and crisis counselors. How do you 
fund these critical services?
    Mr. Peercy. The majority of the funding we were able to go 
to the Federal Government. Several ways. It is kind of what I 
mentioned a while ago, it is an ACF funding, as well as some 
Indian Health Service dollars. We are a compact tribe, and we 
also, as was mentioned by the Chairman earlier, you kind of 
make your priorities in your tribe, and we put tribal dollars 
to that also.
    So it is a combination. Everything we do is pretty much a 
combination of the IHS, any grant monies that we can find, 
whether that be State, whether that be Federal, and tribal 
dollars. We know we are fortunate. We are more fortunate than 
many tribes in that we are able to have businesses. We have 
some business, we have some gaming, and we are able to use some 
of those dollars, so we know we are fortunate in that area.
    The Chairman. Thank you.
    Ms. Deer, given your testimony, criminal jurisdiction is 
still a major issue. What still concerns you about the 
prosecution of those who harm Native women?
    Ms. Deer. I think there are two major issues that tribal 
governments continue to face. The first is the sentencing 
limitation. So the Indian Civil Rights Act has limited, 
traditionally, the ability of tribal governments to incarcerate 
for more than one year, and that was recently increased to 
three years with the Tribal Law and Order Act, but we are 
talking about perhaps a child rapist. The maximum sentence that 
the tribe can impose is three years. So some victims would feel 
that it is probably safer to not report, because that 
perpetrator will come back to that community within a short 
amount of time.
    The second, of course, is the Oliphant versus Suquamish 
Indian Tribe decision of 1978, which held that tribal 
governments did not have criminal jurisdiction over non-
Indians. This flies in the face of hundreds of years of 
asserting authority over people who come into your community 
and commit crimes. So we are still hoping that Congress will 
reconsider that jurisdictional framework and restore what has 
been taken away through an amendment to a legislative overturn 
of Oliphant.
    The Chairman. Mr. Peercy, does your tribe face any 
challenges in prosecuting perpetrators of domestic violence, 
sexual assault, or sex trafficking?
    Mr. Peercy. I would say to you, Senator, I don't know that 
it is not happening in Southern Oklahoma. The trafficking issue 
hasn't been a large issue, but the ability to prosecute is 
always an issue. We are scattered over 12,000 square miles and 
we have tribal law enforcement, but we have to use the district 
courts, and you have a large number of district courts in the 
area. So you have to deal with district attorneys, different 
law enforcement areas.
    We have all the MOUs with all the law enforcement, so we 
are able to have that dual jurisdiction, but it becomes an 
issue. Really, the forensic issues we are just starting. I 
think we are going to be able to come back here in three years 
and really give some good numbers. I know when we talked to the 
staff they were looking for numbers, but many of the things 
that we are starting are very good, but they are very new. So 
we are putting it all together.
    But there is a definite challenge when you have the 
distance that we have. Plus, we have a hospital in the center 
of the area, but we are three hours away from maybe a hospital 
in the northeast part of our area. We don't have our SANE 
nurses there, so we are dealing with those local hospitals that 
may not have their stuff together.
    So, yes, sir, it is a challenge, but we anticipate that we 
are trying to put it together in a comprehensive program in 
dealing with those hospitals, those prosecutors, that law 
enforcement in different areas, that I can come back to you in 
several years and say we have a model program that we can take 
on the road and do anywhere else, even in Minnesota, where we 
have lots and lots of things going on.
    I got outnumbered by Minnesota today, sir, by the way. 
Thank you, sir.
    The Chairman. Well, thank you very much for that, because I 
think we need to generally look across the Country and look for 
model programs and share those programs, instead of starting 
from zero. Some of you have done some excellent programs that 
have worked and maybe others should know about such models.
    Mr. Peercy. Yes, sir. And I think, again, as we move with 
the collaborative work with SAMHSA, with ACF, with DOJ, those 
Federal partners recognize and they don't mind putting us on 
the road to take our programs to other places, and we don't 
have anything to hide. I know our Chief always says we steal 
our best ideas, so we don't mind somebody stealing our ideas if 
they work. So thank you.
    The Chairman. Thank you.
    Ms. Sarah Deer, since Native women often encounter many 
forms of violence at once, trafficking, domestic abuse, sexual 
assault, how can we strengthen the Violence Against Women Act 
to support women who are victims of multiple crimes?
    Ms. Deer. I think the key is always the advocacy, because 
what happens is you have different agencies, different 
government agencies that have different roles; prosecutors 
prosecute, law enforcement make the arrests in the 
investigation; and it is the advocates that hold all of those 
pieces together. So as women experience multiple forms of 
violence, the advocates can help them walk through the process.
    And the Violence Against Women Act does a great job of 
providing resources, but as Ms. O'Leary said, advocacy programs 
have to apply year to year, and they don't know, sometimes, 
from one year to the next whether they are going to continue 
their programs; and that makes it, actually, sometimes more 
dangerous for women because they heard about this program that 
existed and then they finally got up the courage to go to it 
and the funding had been pulled.
    So we want to make sure that advocacy programs have 
sustained funding and that they don't have to turn away women 
at the end of a fiscal year because of lack of funding.
    The Chairman. Well, we have heard from all of you, our 
witnesses, and I really appreciate it. Again, I am repeating 
that your testimonies will help us try to improve this 
situation across the Country, so I want to thank our witnesses 
for participating in today's hearing. I applaud you for taking 
up this, what we call kuleana, or this responsibility, and I 
recognize the difficult job you have in carrying out the 
policies intended to keep people safe. As policy makers, we 
need to hear your voices as you speak for others who are not 
here and from your experiences with them as well.
    We will be looking at the Violence Against Women Act and 
other Federal laws during this session to make sure the laws 
are working as intended. From the testimony received, it is 
clear there is still, without question, much work to do to keep 
our sisters, daughters, and mothers safe and secure.
    Again, I want to give those who haven't had a chance to be 
witnesses an opportunity to let us know how they feel, so 
please remember that the hearing record is open for written 
testimony for two weeks and we look forward to your part in 
this as well.
    Again, I want to thank you. We have had a good dialogue and 
received great reports from you directly, and my reason for 
doing what we are doing is that I don't only want to talk to 
the chiefs, but I want to talk to others as well, and to deal 
with the so-called trenches, to find out what problems there 
are and how we can resolve them. So that is what this is all 
about. But it takes our partnership working together to bring 
this about. So again I thank you so much for your time and we 
look forward to continuing to do this work. Thank you very 
much.
    This hearing is adjourned.
    [Whereupon, at 5:07 p.m. the Committee was adjourned.]


























                            A P P E N D I X

    Prepared Statement of Hon. Ben Shelly, President, Navajo Nation

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
               Prepared Statement of the Cherokee Nation

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
  Prepared Statement of Hon. Clifford Cultee, Chairman, Lummi Indian 
                                 Nation

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
   Prepared Statement of Jana L. Walker, Senior Attorney, Indian Law 
                            Resource Center

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
Prepared Statement of the National Congress of American Indians (NCAI) 
                  Task Force on Violence Against Women

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
         Prepared Statement of the National Indian Health Board
    The National Indian Health Board (NIHB) serves all 565 Federally-
recognized Tribes, both those that operate their own health care 
delivery systems through contracting and compacting, and those 
receiving health care directly from the Indian Health Service (IHS). 
Located in Washington DC on Capitol Hill, the NIHB, a non-profit 
organization, provides a variety of services to Tribes, area Indian 
health boards, Tribal organizations, federal agencies, and private 
foundations. NIHB's services include advocacy, policy formation and 
analysis, legislative and regulatory tracking, direct and timely 
communication with tribes, research on Indian health issues, program 
development and assessment, training and technical assistance programs, 
and project management.
    The Senate Committee on Indian Affairs oversight hearing of July 
14, 2011 highlighted some important initiatives under the Tribal Law 
and Order Act (``TLOA'' or ``the Act''). The testimony covered areas 
that have seen successful efforts in the prevention and treatment of 
sexual assault and domestic violence. The testimony also revealed areas 
that need more attention in the form of legislative fixes, better 
cooperation and coordination, or greater understanding. NIHB believes 
that the success of the Tribal Law and Order Act must be bolstered with 
additional actions on the part of Congress and the agencies charged 
with implementation of the Act.
    Because NIHB's focus is on health care, our comments mainly address 
the ongoing implementation activities of the health care portions of 
the Act. Our concerns break down into five main areas, with sub-areas 
in four of the five main areas. These areas of concern are as follows:

        1) Have health care providers received the training they need? 
        (for screening and treating domestic violence/sexual assault; 
        for collection, storage and documentation of evidence)

        2) Do facilities have the necessary equipment? ( for screening 
        and treating domestic violence/sexual assault; for collection, 
        storage and documentation of evidence)

        3) Do facilities have the necessary personnel? (for screening 
        and treating domestic violence/sexual assault; for collection, 
        storage and documentation of evidence)

        4) Do facilities have the necessary physical space to conduct 
        all of the activities required under the act? (for example, 
        storage areas for evidence, separate areas for victims to be 
        treated)

        5) Are the procedures in place culturally appropriate?

    At their core, most of the issues are questions of funding. While 
NIHB feels very encouraged by the passage of the Tribal Law and Order 
Act, it is, as many have pointed out, a first step. This first step 
must be followed by additional and equally determined steps to fund the 
Act. NIHB believes that the leadership and dedication shown by 
committee members in passing the Act may also provide a powerful call 
to action to the Congress regarding funding. We ask and hope for 
Committee members' continued leadership and advocacy in this all-
important task.
    Although NIHB believes that funding is a major issue, we would like 
to develop the record on some specific points of concern regarding the 
health care portions of the TLOA. Director of the Division of 
Behavioral Health, Indian Health Service, Rose Weahkee testified (in 
her written testimony) that the Domestic Violence Prevention Initiative 
(DVPI) held 37 training events (reported events) in the period starting 
August 2010 through January 2011 (see page 6 of Ms. Weahkee,s 
testimony). Ms. Weahkee testified that 442 participants attended. 
Although NIHB believes that the DVPI has made very valuable 
contributions, it must be noted that there are 880 federally employed 
physicians serving in Indian Health by IHS' own count (see http://
www.ihs.gov/PublicAffairs/IHSBrochure/Workforce.asp). This means that 
even if all 442 participants in the training were physicians, only half 
of the physicians serving the target population would have accessed 
DVPI training. These numbers highlight the larger issue of training 
needed for all providers of care, including nurses, intake personnel, 
and technicians.
    As DVPI provided incomplete coverage in terms of participation, it 
also provided incomplete coverage in terms of topics covered. The 
training sessions included training on domestic violence, reporting for 
child abuse, child maltreatment, dating violence, and bullying. Many 
providers will need training in the collection, storage and 
documentation of evidence. The effort to combat sexual assault and 
domestic violence must be comprehensive. If some areas are neglected, 
the entire initiative is likely to suffer setbacks. If perpetrators 
know they will not be held accountable for their deeds, deterrence is 
undermined. If deterrence is undermined, a powerful tool to address the 
problem of violence against women will be lost.
    NIHB wants to again express and underscore that we do not fault 
DVPI for any gaps in coverage. We point out these gaps in coverage to 
illustrate the need for additional programs and funding. The challenges 
seen in the training context are very likely to be repeated in other 
aspects of implementation of the health care portions of the TLOA.
    NIHB urges the Committee to follow up the July 14, 2011 oversight 
hearing with an additional hearing once additional data sets and 
reports are gathered and submitted. NIHB anticipates that the study 
from the Comptroller General (looking at the capability of IHS and 
Tribal programs to collect, maintain, and secure evidence) may prove 
helpful in mapping out a plan for funding and establishing the need for 
such support.
    Thank you for your consideration of these comments.
                                 ______
                                 
    Prepared Statement of Jolanda E. Ingram, B.A., J.D., Executive 
    Director, Niwhongwh xw E:na:wh Stop the Violence Coalition, Inc.
    Dear Senate Committee on Indian Affairs:
    My name is Jolanda Ingram and I am an enrolled member of the Smith 
River Rancheria (Tolowa) in northern California. I have been residing 
and working on the Hoopa Valley Indian Reservation in northern 
California for almost 10 years. The non-profit that I work for has been 
providing services to Native women victims of sexual assault, stalking, 
domestic violence and dating violence for the past 9 years. We see 
approximately 120 women victims of these crimes per year. Our 
population in eastern Humboldt County is around 3,000. We opened the 
first native shelter in all of California in January of 2004.
    Our program was operating with VAWA funding up until we hired a man 
who sexually harassed the staff and youth participating in our summer 
youth film project. Once he was terminated he was hired by the Hoopa 
Valley Tribe to be their Property & Procurement Officer and was able to 
gain the ear of the Hoopa Tribal Council and then made a complaint to 
the Office On Violence Against Women and our funding was slowly shut 
off without ever having an opportunity to be heard. We did not receive 
any continuation funding and was in line to receive two economic 
recovery grants from OVW but that was stopped based upon the excuse 
that we were under OIG investigation. We pursued a different line of 
funding from SAMHSA (American Indians in Recovery Program) to pay for 
transitional living and recovery support services from California Rural 
Indian Health Board and Chairman Leonard Masten wrote a letter to them 
stating that our non-profit could not legally operate on the 
reservation. Our non-profit has been certified by the Director of 
Commerce for the Hoopa Tribe, Daniel Jordan, as a non-profit in good 
standing for the past 8 years. Our final day of operation will be 7/31/
2011 due to this ongoing situation which has lasted over 2 years.
    The native women in this community will no longer have a safe place 
to go. This is exactly what the perpetrators of violence on our 
reservation wanted. They have succeeded in shutting down a good 
program.
    I believe that it is critical that the federal government continue 
to fund non-profits in Indian country, with or without the political 
support of the Tribes. Tribal Councils are subject to the political 
forces that shape their decisionmaking and often that goes against the 
best interests of our women and children. It is not politically correct 
to correct people who have done wrong.
    There is no justice for Native women in the current situation. Even 
with the progress that VAWA has made, we are still be undermined by 
politics. I urge the Senate Committee to take some appropriate action 
to rectify this situation by allowing non-profits to continue to be 
funded.
                                 ______
                                 
  Prepared Statement of Hon. Kirk E. Francis, Chief, Penobscot Indian 
                                 Nation
Unprosecuted Rape of a Native Woman
    When a sexual assault happens to a Native woman, especially by a 
non-native, history is repeating itself, unchanged since European 
contact.
    Amnesty International's Maze of Injustice report of 2007 has 
reported that sexual assault on Native women happens 2 to 3 times more 
often than those incidents of assault on non-native women and talks 
about how Indian Country has been failed by the Justice system when 
responding to Violence against Native Women.
    The lack of jurisdiction for Indian Tribes to hold offenders 
accountable in crimes committed on the Nation's territories is part of 
the problem. This particular crime happened off reservation so the 
accountability is on State systems.
    The lack of accountability of local, county, state and federal 
justice systems to hold non-native offenders crimes against native 
people off reservation is another way that Native's are re-victimized.
    This story is of one Native woman sexually assaulted off 
reservation and the refusal of the justice system to hold the offender 
accountable.
    On August 20, 2004 a 25 year old native woman, staying in Bar 
Harbor, Maine spent an evening, as a lot of young people do, at a local 
bar with friends. A man tried to carry on a conversation with her and 
she declined to talk to him, eventually she did and even accepted an 
invitation to step outside in the air.
    Once outside, he suggested they take a walk along the waterfront 
that hundreds if not thousands of visitors flock to each year, coming 
to this quaint New England town, seen as a perfect place for family and 
an ideal Maine destination spot for decades.
    She never imagined that in this very visible area in the center of 
this affluent, world renowned town that she would be in danger. She was 
so wrong.
    As they stood at the park overlooking the expensive watercraft, 
berthed by the rich, he forced her to the ground and raped her.
    The terror that she experienced as he forced her to submit to him 
is indescribable. There was no way to know what would happen if she 
resisted, would he kill her? Totally helpless to fight his strength and 
power, she had to endure the forced invasion of her body.
    She has endured the effects that would define who she would be for 
years to come. Depressed, ashamed, humiliated, fearful of all men, 
unable to form a healthy relationships and fear of social interactions. 
Certainly she would wonder about pregnancy, STD, HIV/AIDS.
    Her Mother says:

        As a mother, it's instinctive to protect our children and to 
        always think that you're going to be there to keep them from 
        harm.
        When that harm you've strive so hard to keep at bay does touch 
        the life of your child and you weren't there to protect them 
        leaves a parent in a gut wrenching state. It doesn't only touch 
        your child's life; it seeps into every member of your family as 
        well. I've struggled to comprehend the act of violence that 
        came in the form of rape that's touched my child's life. 
        Helplessness and the many thoughts of what I should have done 
        to prevented this, or what I should do. I felt like I couldn't 
        even be of comfort to my child as I watched her daily 
        struggling with fear, depression and anger. Watching her go 
        into rages and it seemed like it was a lost cause. During my 
        daughter's struggles, she found comfort in drugs which lead to 
        her addiction to them. Another helplessness that I had to watch 
        her endure as she coped with the addiction and kicking it.
        I've often wondered if this man who raped my daughter went 
        about his daily life and if he ever thought of what he did. Did 
        he feel ashamed? Did it keep him awake late at night? My 
        thoughts of what his upbringing was, did he live a life of 
        watching maybe his parent doing harm to another person? Was 
        this all normal to him?
        My husband and I, we've worked hard at bringing up our children 
        to be kind to others, have respect for others. Harming someone 
        wasn't good and we didn't allow that in our home.
        It's a nightmare when it happens in a family. It disrupts lives 
        and the road to things getting back to normal is a long road. I 
        can honestly say it's taken many years for my daughter to reach 
        a state of mind where she feels safe, where she's confident in 
        herself and deals with the fear of being alone. I wouldn't wish 
        all the things that my daughter has gone through on anyone or 
        any family.
        We made several trips to Hancock County to the District 
        Attorney's office. The first time my daughter had to go before 
        the Grand Jury so they could make a ruling on her behalf. Well 
        they heard my daughter's side and ruled to indict this man, but 
        by that time he had left the State of Maine, so there was a 
        warrant out for his arrest.
        It took several years before he was found and was held. We were 
        glad when that happened and thought finally something was going 
        to be done. We got another call from the D.A.'s office and we 
        met with them. We were hopeful that we would hear something 
        positive, they would tell us he was going to be extradited back 
        to stand trial. It didn't turn out that way, instead the 
        meeting was about why they wouldn't bring him back, that there 
        didn't seem to be enough to go to trial, etc. and endless 
        stories about cases that looked promising but were lost. They 
        wanted her to drop her case, which wasn't what we wanted to 
        hear. So this trip turned out to be a disappointment and as a 
        person seeking justice, it makes you lose faith and respect for 
        those that sit in higher places that are supposed to be looking 
        out for people like us.
        It left us all feeling that what happened to my daughter wasn't 
        of any importance and the man gets to walk away free. He walks 
        away to commit more rapes and disrupt more lives.
        My daughter has voiced that even if she doesn't win this case 
        against him, she would be satisfied with some justice of him 
        admitting to the crime and acknowledging it. She wants to have 
        a say, and let him know how much he had disrupted her life and 
        the struggles she had to overcome. (PBM)

    As the years went by she has sought help of professionals and that 
has allowed her to start healing, but hasn't lessened the impact the 
experience on her as a Native woman, or allowed her to enjoy a social 
life that others her age enjoy without fear.
    The rape was reported to the local police in Bar Harbor and the 
assailant arrested. He was indicted by a Grand Jury and held for trial. 
He fled the area. Former District Attorney Michael Povitch's office in 
Hancock County, where Bar Harbor is located, notified her in Jan 2010, 
he had been found and the office was considering extraditing him back 
for trial.
    On June 30, 2010, several months of unanswered calls and e-mails 
later, The Victim Witness Advocate called with an appointment.
    Assistant District Attorney Mary Kellett told her that the office 
was reluctant to go forward with the case as they didn't think they 
could get a conviction.
    The only one showing compassion for the victim's feelings was the 
arresting officer, Sharon Worcester of BHPD. ADA Kellett was outright 
rude and victim blaming. She stated it would cost a lot of money to 
extradite the assailant to Maine and it would not be economically 
feasible to do so for what she considered a weak case, wouldn't the 
victim consider dropping her desire to have the case prosecuted.
    This Hancock County ADA has brought many cases to trial and lost 
yet now has one with both physical and medical evidence and refuses. 
The Grand Jury found sufficient evidence to bring the offender to 
trial, but not the DA; we believe they have based their decisions on 
money rather than facts of a case.
    Refusal to hold an offender accountable has caused this victim 
additional trauma by sending her the message that money to extradite is 
more important than the well being of a native woman that was raped in 
their town. To the victim and others this would appear to send the 
decades old message of: native women are less than worthy of time and 
finances to hold a non-native offender accountable.
    There would be publicity around the case which could have a 
negative impact on the visitors to the Bar Harbor Region. One wonders 
about the impact negative press would have on the visitors if it were 
disclosed that the town is not a safe place for women or being in the 
town square opens one up for rape, especially if they happen to be 
Native, the message here is that it is somehow the victim's fault that 
someone would rape them. One wonders what the same instance of rape 
happening to a rich, white resident of the area by a native would 
garner for attention.
    A reporter from the Bangor Daily News looked at doing a report on 
this case, and the number of assaults perpetrated upon Native women 
versus non-natives, but it seems it did not rise to the level of 
importance there either, as this victim has waited for over a year to 
see that story but has been given lip service with ``I am so busy'' or 
``my Editor keeps sending me on important stories'' excuses! It would 
be better if she would tell it like it is, ``You are not worthy of our 
time'' or ``the Bangor Daily doesn't want to rock any political 
boats''.
    From a friend:

        ''Another rape unsolved, Oh I am sorry, in this case the rape 
        was solved but an unwilling town failed to follow through and 
        bring it to justice. It is because rape doesn't happen in this 
        town or is it of the appearance of not having such things 
        happen in this tourist town? No it can't be. look again, this 
        rapist was arrested and the charges brought to the Grand Jury 
        almost seven years ago. The problem is all the evidence was 
        there and was proven without a doubt but the rapist fled. The 
        rapist had fled to Florida and the DA did not extradite him to 
        Maine. The DA from Bar Harbor had drilled into the victims head 
        that she did not have a chance if the case went to court. The 
        DA over stepped his bounds by telling the victim she has no 
        chance in this case. The victim has been dealing with this 
        since the incident occurred in 2004. Her suffering from 
        depression and fear of trusting others has diminished her self 
        esteem and her ability to cope with daily life activities. The 
        family has tried to seek justice for the physical violation of 
        their daughters being and has tried to help her. It has been a 
        long hard road over these past years and unsuccessful due to 
        limited financial resources. I guess this case needs a powerful 
        representative who will listen . . .
        Has justice been served? No! For the past few years we have 
        been trying to get this cased re-opened and brought to justice 
        and bring this individual to justice. It has been discussed 
        with a newspaper reporter that informed the family they would 
        write a commentary about the trauma of seeking justice for a 
        violation on this victim and put it to rest. We have yet to see 
        any write up. When we attempt to follow up and question the 
        delays we are informed of how busy they are.
        Give me a break!! This is telling me that this is not important 
        enough to be newsworthy. (EJG)

    No one knows where this rapist is, the opportunity for him to rape 
again is magnified by his ability to escape responsibility in this case
    We need to look beyond judicial economics and to consider safety of 
abused women, children, and men , especially in cases having to do with 
domestic violence and sexual assault, if they are assaulted the 
offender will be held accountable.
    If we, as Native women and victims of crime are asking that 
offenders be held accountable it seems reasonable that we would also 
demand, that the legal and justice systems also be held 
accountable.What is the Message?
    It was brought to my attention that a citizen of the Penobscot 
Nation has been victimized in the worst way.
    A 25 year old women who was out with friends in Bar Harbor met a 
guy and had a conversation which turned into taking a walk, not through 
some dark alley or through the woods but to a park in one of the most 
affluent towns in America. In this park the women was forced to the 
ground and raped.
    This disgusting crime was reported and the offender was indicted by 
a grand jury for his crime and then fled.. The offender was located yet 
to date no decision has been made to return him to Maine to answer for 
this crime, it has been six years. Rather inquiry after inquiry by the 
victim has done nothing to bring this man to justice, instead the 
victim has had to listen to prominent people within the legal system 
tell her that they did not think ``that they could win''.
    Well to the victim it is not about winning and losing, I would dare 
say that no one ever wins in these situations. For her it is about 
being heard, for him to have to explain his actions, for someone to say 
this is not ok.
    Victims of this type of crime understand that they will again be 
victimized in the process as they will be asked what they were wearing, 
how many drinks they had, etc. . . But for this victim I commend her 
courage to stand up to all of that and ask for her day in court and 
face the issue openly.
    I believe this is what we are all entitled to and that is being 
denied, by denying we are, as a society, sending a message of silencing 
victims of rape, creating a situation where the message to the victim 
is one of minimizing the incident.
    Native women are sexually assaulted at two times the rate of the 
average American and the prosecution disparities are about the same in 
finding justice, no wonder the unreported incidents continue to grow.
    In this case there has been little to no interest by the media 
about a rape that occurred in one of Americas favorite places, this is 
also very typical in Sexual assault cases against Native women, it 
simply does not rise to the level of importance for the media as 
evidenced by a reporters comment of ``my editor keeps sending me on 
important issues'' to explain the lack of coverage.
    This incident however has nothing to do with race as this could 
have been anyone's daughter, mother or sister as these offenders 
typically do not discriminate but in this case the system seems to be 
and unfortunately this follows National trends for this issue, as a 
State we have to do better.
    Our culture is a matriarchal society with clan mothers, our 
communities are dependent on the strength of our women and their well 
being, so this did not just create one victim but affects our entire 
community.
    Other governments tell us that we have limited jurisdiction over 
non Native offenders especially on off reservation crimes. So who does 
prosecute these offenders if not us?
    Those who claim to have responsibility need to uphold it and 
vigorously fight for this young lady. It has been six years since this 
crime occurred and despite resources and how hard it will be to win 
action needs to be taken not just for this one victim but to send a 
message that you will not come to our State and sexually assault our 
women, if you leave we will pursue you.
    I think it is time for mandatory extradition for peoples charged or 
indicted for this crime and will pursue making that a reality for all 
citizens of our State, this crime for the victim is one that re occurs 
within her every day and we just have to be better than that. Our goal 
as leaders and the system has to be to create and maintain healthy 
communities; in our culture no people play a more important role then 
our women.
    I call on the Hancock County District Attorneys office to get 
serious about protecting our citizens, stop being afraid of conviction 
rates and get concerned about allowing victims to be heard and heal.
    That's what we need to stand for as communities and as a State or 
we will never heal but promote more of these acts by sending the 
message to offenders that their offense is not a serious matter by this 
State's non action in bringing this man to stand and held accountable.
                                 ______
                                 
 Prepared Statement of Esta Soler, Founder/President, Futures Without 
                                Violence

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
    Prepared Statement of Suzanne Koepplinger, Executive Director, 
                Minnesota Indian Women's Resource Center
    In late 2009, the Minnesota Indian Women's Resource Center (MIWRC) 
published Shattered Hearts: the commercial sexual exploitation of 
American Indian women and girls in Minnesota. This was the first 
research in the country to analyze the scope of sexual exploitation of 
American Indian women and girls in our country. Since the release of 
the report, MIWRC has created culturally based interventions to work 
with Native women and girls who are victimized by sex traffickers and 
pimps. We have developed a keen insight into the vulnerability factors, 
gateways to entry, barriers to exit this traumatizing lifestyle, and 
effective interventions to heal the victims. We provide the following 
recommendations to the Senate Indian Affairs Committee for 
consideration as Congress moves to reauthorize the Trafficking Victims 
Protection and Reauthorization Act (TVPRA) in the current session.

  <bullet> We support the Wyden/Cornyn language incorporated into the 
        TVPRA 2011 (S 1301) allocating specific funds to serve domestic 
        sex trafficked minors, and the $5 million in the President's 
        budget for HHS/Runaway and Homeless Youth bill to serve 
        trafficked youth. We urge specifically that additional funding 
        be directed to serve trafficked American Indian youth in urban 
        areas. The vast majority of young victims, either runaway, 
        throwaway, homeless or at risk due to gang violence, need safe, 
        culturally based long term housing to help them break away from 
        the pimps and safely rebuild their lives. Federal funds to 
        serve domestic minor sex trafficking victims is a critical need 
        in this country.

  <bullet> Eliminate the requirement for law enforcement certification 
        for domestic sex trafficking victims to qualify for services 
        funded by federal dollars. In the Minneapolis American Indian 
        community, none of the girls who come to our programs are 
        willing to report these crimes or cooperate with law 
        enforcement, yet they are disclosing sexual exploitation 
        beginning at the age of 7 years old in some cases and 
        continuing into their teen years. The lack of credible data on 
        the scope of sex trafficking is directly related to the 
        requirement of law enforcement certification. Once young 
        victims are given a safe place to sleep with support systems in 
        place, they may be willing to cooperate with law enforcement, 
        but they must first begin to feel safe and heal from the 
        traumas they have endured. Providing these services must be 
        within the capacity of culturally based programs in urban areas 
        and on reservations. A training program that certifies front 
        line advocates to collect data on rates of domestic minor sex 
        trafficking will both enrich the service providers ability to 
        intervene with trafficked youth and create more reliable data 
        tracking systems to facilitate better understanding of the 
        scope of the problem nation-wide.

  <bullet> Eliminate the HHS sub contract with the U.S. Conference of 
        Catholic Bishops to provide service funds to trafficked 
        victims. These are victims of repeated rape, many of them are 
        children, and many display heavy drug and alcohol addictions 
        and mental illness resulting from their traumas. The real need 
        on the ground for holistic services is compromised by having a 
        faith based intermediary as grant maker. A neutral party should 
        be contracted with.

    We believe the depth of sexual exploitation of American Indians is 
only now beginning to be uncovered. Historical trauma and multi-
generational grief and loss, compounded by high rates of poverty and 
sexual violence make American Indians extremely vulnerable to sexual 
predators. Your help is needed in providing the culturally appropriate 
care they need. My sincere thanks for your concern for these women and 
children.
  Response to Written Questions Submitted by Hon. Daniel K. Akaka to 
                            Carmen O'Leary 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   Response to Written Questions Submitted by Hon. John Barrasso to 
                          Rose Weahkee, Ph.D.
    Question 1. Several witnesses have provided testimony for this 
hearing stating that violence in Indian communities has become the 
norm. As a result, a generation of children is learning that violent 
behavior is an acceptable way to cope with frustrations or problems. 
How are these children supposed to ``unlearn'' this behavior, 
particularly where it is prevalent throughout a community?
    Childhood exposure to violence is a major public health problem in 
American Indian and Alaska Native (AI/AN) communities. According to 
Social Learning Theory \1\ violence is conceptualized as a behavior 
learned during childhood within the family of origin. \2\ The working 
hypothesis is that violence is learned in this environment as a model 
for conflict resolution, which may then manifest as bullying and 
interpersonal, domestic and sexual violence in adulthood. In addition, 
research suggests that children exposed to violence are more likely 
engage in harmful or risky behaviors as adults. \3\ Intensive and 
prolonged stress can lead to a variety of short- and long-term negative 
health effects including alcoholism, depression, eating disorders, 
heart disease, cancer, and other chronic diseases. \4\
---------------------------------------------------------------------------
    \1\ Bandura, A. (1973). Aggression: A social learning analysis. 
Englewood Cliffs, NJ: Prentice-Hall.
    \2\ Early Childhood Matters (2011). Bernard van Leer Foundation.
    \3\ Ibid.
    \4\ McEwen, B.S. (2008). Central effects of stress hormones in 
health and disease: Understanding the protective and damaging effects 
of stress and stress mediators. Eur J Pharm 583(2-3):174-185.
---------------------------------------------------------------------------
    Interventions aimed at the ``unlearning'' of violent behaviors have 
been the subject of vigorous scientific debate for decades. In general, 
a comprehensive approach is necessary, using a variety of community-
driven public health education, prevention, intervention, and treatment 
strategies. These can include community awareness and education events 
focused on culturally-based and positive alternatives to violence in 
conflict resolution, promotion of healthy communication techniques, 
bullying and teen dating violence prevention, preservation of the 
family unit through strength-based intervention, early identification 
and intervention in cases of child maltreatment, and treatment focused 
on substituting maladaptive coping strategies with constructive ones. 
The Adverse Childhood Experiences (ACE) Study demonstrated that the 
impacts of trauma are cumulative, and that unaddressed trauma underlies 
a wide range of problems. \5\ Since Adverse Childhood Experiences are 
more likely to occur in AI/AN communities and studies strongly suggest 
a reliable relationship between ACE and certain diseases common among 
AI/AN populations, prevention should be a primary focus.
---------------------------------------------------------------------------
    \5\ Felitti et al. (1998). Relationship of childhood abuse and 
household dysfunction to many of the leading causes of death in adults: 
The Adverse Childhood Experiences (ACE) Study. Am J Prev Med 14(4):245-
258.
---------------------------------------------------------------------------
    The Domestic Violence Prevention Initiative (DVPI), enabled by the 
Omnibus Appropriations Act, 2009 (P.L. 111-8) and the Department of the 
Interior, Environment, and Related Agencies Appropriations Act, 2010 
(Division A, P.L. 111-88), implemented a nationally-coordinated effort 
aimed at promoting evidence-based and practice-based models in the 
context of community-driven, culturally-appropriate prevention and 
treatment approaches to domestic and sexual violence. Evidence-based 
models are those that have been formally evaluated and replicated and 
found to be effective; practice-based models are those informed by 
local clinical practice and found to be efficacious but have not been 
formally evaluated. The DVPI funds projects that provide a range of 
prevention activities such as bullying prevention and school education 
programs. Funded projects also provide community education and increase 
capacity for domestic and sexual violence awareness and intervention 
through increased training related to victim advocacy, development of 
community response teams, policy development, and program 
implementation and treatment for batterers.
    The DVPI has awarded a total of 65 projects that include Indian 
Health Service (IHS), Tribally, and Urban operated programs. In the 
first year of the program, the DVPI resulted in 37,737 screenings for 
domestic violence (73 percent of eligible patients) and over 2,000 
children received direct services including case management, crisis 
intervention, advocacy, medical treatment and counseling.
    Over 2,500 participants were trained at 178 training events. 
Attendees included multidisciplinary and health professionals as well 
non-medical personnel including educational and child care staff, law 
enforcement and Tribal leaders and elders. Topics included general 
education related to violence prevention, children's issues, dating 
violence, and bullying among others. In addition, more than 18,000 
community members were reached through DVPI-funded community 
educational events.
    The national DVPI conference was conducted from July 6-8, 2011 in 
Albuquerque, New Mexico. Over 140 DVPI program and IHS staff attended 
the conference which included community awareness planning, engaging 
men in violence prevention, impact of violence on children, 
incorporation of traditional healing, and teen dating awareness, among 
other topics.
    Children and adults can learn and develop new skills and behaviors 
through evidenced-based practices such as Dialectical Behavior Therapy 
(DBT). DBT is a skill based treatment, which seeks to teach and refine 
skills in changing behavioral, emotional, and thinking patterns 
associated with maladaptive coping strategies. DBT seeks to decrease 
interpersonal chaos, labile emotions, impulsiveness, and cognitive 
dysregulation; and DBT seeks to increase emotional regulation, 
interpersonal effectiveness, distress tolerance, and core mindfulness 
skills. DBT can be effective in Indian communities because it can help 
children unlearn the notion that use of violence is an acceptable form 
of dealing with frustration or problems. The IHS currently funds 11 
Youth Regional Treatment Centers (YRTCs) and 127 Methamphetamine and 
Suicide Prevention Initiative (MSPI) projects. A significant number of 
YRTCs and MSPI programs have implemented DBT for a variety of mental 
health issues.

    Question 2. Child sexual abuse occurs in too many communities and 
Indian Country is not immune. In fact, Ms. O'Leary provided written 
testimony about students and former students of a Bureau of Indian 
Education school who were victims of a pedophile. Do you think that 
this kind of abuse can become cyclical--that victims can be traumatized 
to the point where they themselves become perpetrators?
    Answer. All too often, children are victims of violence, crime, and 
abuse. This victimization may take the form of bullying, physical 
assault, child maltreatment, or sexual abuse. Children may also witness 
such events in their homes, schools, and communities. Research has 
shown that exposure to traumatic events early in life can have many 
negative effects throughout childhood and adolescence, and into 
adulthood. The ACE Study found a strong relationship between traumatic 
events experienced in childhood as reported in adulthood and chronic 
physical illness such as heart disease, and mental health problems such 
as depression. \6\ Treatment may be improved by targeting specific risk 
factors for intervention and making better use of risk management 
resources in the community, while preserving the most restrictive 
treatment options for the highest risk offenders. \7\ However, research 
does not support the hypothesis that victims of pedophiles are more 
likely to become sexual perpetrators themselves.
---------------------------------------------------------------------------
    \6\ Centers for Disease Control and Prevention, (2010). Mortality 
and Morbidity Weekly Report, 59, 1609-1613.
    \7\ Parks GA. and Bard, DE. (2006) Risk factors for adolescent sex 
offender recidivism: evaluation of predictive factors and comparison of 
three groups based upon victim type. Oct;18(4):319-42.

    Question 3. What is Indian Health Service doing to break this cycle 
of abuse?
    Answer. The IHS is committed to disrupting and otherwise minimizing 
risk associated with child abuse by developing and implementing the 
program and coordination efforts necessary to effectively prevent and 
address domestic violence, sexual assault, and child maltreatment in 
Indian Country. Some effective approaches include practice-based and 
evidence-based parenting and parent-child attachment programs, 
parenting education and support, effective mental health and substance 
abuse treatment for parents and caregivers, early identification and 
treatment among children (i.e., mental health consultation in 
childcare, pediatric screening), treatment for identified trauma, home 
visitation programs, and case management.
    The IHS Government Performance and Results Act Measure for domestic 
violence denotes the percentage of AI/AN female patients ages 15-40 who 
have been screened for domestic and intimate partner violence during 
the year. Since 2008, the IHS has far exceeded the target screening 
rate for each year.
    Through the DVPI, the IHS works to expand and strengthen the Tribal 
and Urban responses to domestic violence and sexual assault. There are 
a total of 65 IHS, Tribal, and Urban operated DVPI Programs that 
address prevention, intervention, treatment, awareness, training, 
policy development and community response and coordination for domestic 
violence and sexual assault. Eight of the 65 programs focus on Sexual 
Assault Nurse Examiner, Sexual Assault Forensic Examiner, and Sexual 
Assault Response Team (SANE/SAFE/SART) programs, and the training of 
medical personnel in conducting proper and thorough forensic medical 
exams.
    The first IHS Sexual Assault Policy was established on March 23, 
2011. The policy establishes a uniform standard of care for sexual 
assault victims seeking clinical services in IHS operated hospitals. 
The policy includes guidance on the collection of forensic evidence, 
which aligns with the criminal justice system response and subpoena 
regulations. The IHS is presently developing a policy implementation 
and monitoring plan to ensure that the policy is implemented 
consistently throughout the IHS system. The IHS consulted with Tribal 
Leaders and Urban Indian Health Directors on the Sexual Assault Policy 
and reviewed comments for incorporation in future revisions. A 
comprehensive domestic violence and elder abuse policy, similar in 
scope and specificity to the IHS Sexual Assault Policy, are currently 
being developed.
    The IHS will offer (7) Sexual Assault Response Team (SART) and (7) 
Sexual Assault Examiner (SAE) training sessions to all 45 IHS and 
Tribal hospitals in Calendar Year 2012. Clinical skills training will 
be conducted in a simulation laboratory and any medical provider who 
has completed SAE training will be eligible to attend. Forensic 
equipment, including cameras, storage cases, tripods, laptops 
configured with telemedicine software, and colposcopes (where needed), 
will be purchased for all of the 45 IHS and Tribal hospitals. Efforts 
to purchase forensic equipment and to expand the SANE/SAFE/SART 
trainings to include all of the IHS hospitals, clinics, and health 
stations are underway.
    The IHS and the Department of Justice Office on Victims of Crime 
(OVC) entered into a partnership involving the Federal Bureau of 
Investigations (FBI) and the Department of the Interior. This 
partnership, entitled the Sexual Assault Nurse Examiner-Sexual Assault 
Response Team (SANE-SART) AI/AN Initiative, is funded through the OVC. 
Using evidence-based practices involving SANEs, SARTs, and victim-
centered law enforcement practices, the initiative will support victim 
recovery, satisfaction, and cooperation with the Federal criminal 
justice system, as well as supporting victims' of sexual assault and 
the Tribal communities' need for justice.
    The IHS is updating the IHS Child Maltreatment Policy through a 
policy workgroup of IHS professionals with extensive field experience 
in providing direct services to abused and neglected AI/AN children. 
The Policy will address local child maltreatment and child sexual abuse 
policies and procedures for IHS operated hospitals and clinics. The IHS 
will hold a minimum of 6 regional trainings on child maltreatment in 
Calendar Year 2012. The IHS will work with the local U.S. Assistant 
Attorney's Office, the FBI, the Bureau of Indian Affairs law 
enforcement and social services, Tribal law enforcement and 
prosecutors, community victim services, and State agencies to provide 
trainings specific to State and local laws. These trainings will focus 
on multidisciplinary approaches for the evaluation and treatment of 
suspected child maltreatment cases.

    Question 4. Victims of sexual crimes need treatment locations that 
are safe. However, there are potential risks that offenders could 
threaten the safety of these victims at Indian hospitals or clinics. 
What is the Indian Health Service doing to keep such victims safe at 
the Indian hospitals and clinics?
    Answer. Chapter 29 of the Indian Health Manual outlines policies 
required to protect the identity of sexual assault victims and ensure 
patient confidentiality. The policy provides guidance for victim safety 
and privacy. Each local healthcare facility determines the procedures 
to ensure safety and privacy (Indian Health Manual, Chapter 29 3-29.2). 
Additionally, sexual assault patients must be given priority as 
emergency cases and be provided with a private treatment room. 
Furthermore, arrangements must be made so that sexual assault patients 
will not have to wait in the main waiting area.
    The SAFE or SANE is responsible for being aware of the scope and 
limitations of confidentiality related to information they gather 
during the examination process. Confidentiality is intricately linked 
to the scope of patients' consent. The SAFE or SANE, other members of a 
SART, and other collaborating responders are responsible for informing 
victims of the scope of confidentiality and must be cautious not to 
exceed the limits of the victim's consent to share information in each 
case. Furthermore, the victim must be offered the support and services 
of a victim advocate while in the hospital. The victim advocate is 
responsible for informing victims about their rights before, during, 
and after the examination process, ensuring the victim's interests are 
represented and that their wishes are respected. If the victim accepts, 
and the victim advocate is available, arrangements must be made for a 
victim advocate to accompany the patient during the examination.
    The IHS must make reasonable efforts to limit the disclosure of 
patient health information to the minimum necessary to accomplish the 
intended purpose of the use, disclosure, or request and to those 
persons or classes of persons to which access is needed. All records 
must be handled in accordance with the Privacy Act (5 U.S.C. 552a) and 
the Health Insurance Portability and Accountability Act Privacy Rule 
(45 CFR 164) and all other applicable laws and rules.
    All IHS hospitals offering on-site sexual assault examinations must 
have a process that allows medical providers to notify law enforcement 
of the sexual assault without identifying the adolescent or the adult 
victim or the suspect (if permissible under applicable law). In this 
case the report to law enforcement must avoid providing any identifying 
information, and the evidence kit must be identified as an ``anonymous 
forensic evidence kit.''

    Question 5. The Committee has received prior testimony that drug 
abuse can lead to more violence committed against women and children in 
Indian Country. As part of the Indian Health Care Improvement Act, the 
Secretary of Health and Human Services is required to coordinate with 
the Secretary of the Interior and the Attorney General to establish a 
prescription drug monitoring program (PDMP) at Indian health 
facilities. What is the status of that program?
    Answer. Data from the 2009 National Survey on Drug Use and Health 
show that the AI/AN population leads all other ethnic groups in past 
30-day misuse of prescription-type drugs. In response, IHS has 
developed and established a number of initiatives to curb substance 
abuse and dependence. The IHS partnered with the North Dakota PDMP to 
secure $100,000 for required programming of an open source data 
transmission solution from the IHS Resource and Patient Management 
System to States using communication formats developed by the American 
Society for Automation in Pharmacy (ASAP), versions (4.0) and (4.1). 
The resulting agreement included software initialization, testing, 
troubleshooting, and institution of routine reporting to the State PDMP 
for all Federal sites within the States of North Dakota, South Dakota, 
and Minnesota. The IHS has also partnered with the Bureau of Justice 
Assistance (BJA) to secure an additional $35,000 to program the three 
remaining programming solutions--ASAP 1995, ASAP 2005, and version 3.0. 
The IHS has requested and the BJA has granted that one IHS, Tribal, or 
Urban (I/T/U) site from each State with a unique ASAP version, vendor, 
or unique data set requirement may be used as a test site. The BJA will 
allow States with large numbers of I/T/U facilities to be assigned a 
second test site. The resulting data transmission solutions will be 
made available to all I/T/U facilities nationwide.
    To date, these partnerships have enabled the IHS to secure funding; 
identify required data reporting elements; recruit and hire vendors to 
conduct software programming, testing, and trouble-shooting; and 
develop the required security protocols for transmission and receipt of 
data. The IHS and its partners are engaged in ongoing efforts to 
execute necessary sharing agreements, initiate reporting at test sites, 
distribute the resulting software to all Federal and Urban Indian 
health programs, provide export software to requesting Tribal sites, 
and educate patients and staff about the need for data submission to 
State PDMPs to improve clinical care.
    Each State maintains its own PDMP data requirements. These 
requirements are similar but not identical between States, thus making 
data exchange challenging. The IHS must ensure that its participation 
in each individual State PDMP is consistent with Federal law. For 
example, IHS is authorized under Federal law to share prescription drug 
data with public health authorities authorized by law to collect and 
receive such information. However, not all State PDMPs have been 
established as public health authorities. Some PDMPs have been 
established with law enforcement, rather than public health, as their 
primary mandate.

                                  <all>

</pre></body></html>
